<html>
<title> - [H.A.S.C. No. 114-13] OUTSIDE PERSPECTIVES ON THE PRESIDENT'S PROPOSED AUTHORIZATION FOR THE USE OF MILITARY FORCE AGAINST THE ISLAMIC STATE OF IRAQ AND THE LEVANT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-13]

                      OUTSIDE PERSPECTIVES ON THE
                  PRESIDENT'S PROPOSED AUTHORIZATION 
                      FOR THE USE OF MILITARY FORCE
                      AGAINST THE ISLAMIC STATE OF
                          IRAQ AND THE LEVANT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-100                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                        Spencer Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Chesney, Robert M., Associate Dean for Academic Affairs, Charles 
  I. Francis Professor in Law, University of Texas...............     6
Keane, GEN Jack, USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     4
Wittes, Benjamin, Senior Fellow, Governance Studies, The 
  Brookings Institution..........................................     8

                                APPENDIX

Prepared Statements:

    Chesney, Robert M............................................    66
    Keane, GEN Jack..............................................    55
    Wittes, Benjamin.............................................    84

Documents Submitted for the Record:

    General James N. Mattis letter...............................    99

Witness Responses to Questions Asked During the Hearing:

    [No answers were available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. O'Rourke.................................................   105
    Mr. Shuster..................................................   105
    
    
    
    
OUTSIDE PERSPECTIVES ON THE PRESIDENT'S PROPOSED AUTHORIZATION FOR THE 
 USE OF MILITARY FORCE AGAINST THE ISLAMIC STATE OF IRAQ AND THE LEVANT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 26, 2015.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Committee meets today to hear testimony on the President's 
proposed authorization for the use of military force [AUMF] 
against ISIS [Islamic State of Iraq and Syria].<dagger> This 
hearing is just the first committee event on this issue, but 
given the expertise of the witnesses today, I think it will 
raise many of the issues and considerations that we will need 
to follow up on in the future.
---------------------------------------------------------------------------
    <dagger> Also referred to as ISIL, Islamic State of Iraq and the 
Levant.
---------------------------------------------------------------------------
    Previously we have heard testimony that the threat posed by 
Islamic jihadists is growing. Last September President Obama 
said, and I want to quote here, ``Our objective is clear. We 
will degrade and ultimately destroy ISIL through a 
comprehensive and sustained counterterrorism strategy.''
    Many people, including me, are concerned, however, that we 
do not really have a clear strategy that will accomplish that 
goal.
    An AUMF is not a strategy. It is only an authorization to 
use military force against a particular enemy.
    In spite of the fact that the President ordered military 
action against ISIS to begin several months ago and only now 
has submitted a request to Congress to authorize such action, I 
believe it is still important for the United States Congress to 
do its constitutional duty. But I have a number of questions 
and concerns about the President's language.
    First, as we have experienced with the 2001 AUMF, defining 
the enemy is difficult, especially as they adapt and form new 
allegiances and seek to manipulate our system.
    Second, we already put too many encumbrances on our troops 
in carrying out the missions they are assigned, in my opinion, 
so going into battle with a lawyer nearby to decide whether a 
particular action is enduring or offensive or a ground combat 
operation seems problematic.
    Third, I know that some are concerned about the time 
limitation included in this draft. I think a forcing action 
that requires Congress to consider and possibly update an AUMF 
may be useful, but I want to hear from our witnesses their 
views because I recognize the drawbacks of unintentionally 
telegraphing a timeline to the enemy.
    A vote to authorize a President to send American men and 
women into battle is as serious and sobering a vote as any vote 
cast by a Member of Congress. Our country has always been 
incredibly fortunate to have had individuals of outstanding 
bravery and dedication defending our Nation and the American 
way of life.
    We are facing a cruel and savage opponent. Our service 
members must know that their mission carries the full weight of 
approval under our constitutional system and that the 
administration, this Congress, and the American people will 
stand with them and support them as long as it takes to 
accomplish the missions which they have been assigned.
    That will be my goal as we go through this process.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I think it was really 
two topics for this morning's hearing. One is the basic details 
of the AUMF with regards to Syria and Iraq and ISIL, and it is 
a very, very difficult thing to do because Congress wants to 
strike the balance.
    We do not want to give the President a blank check and take 
away any of our authority. On the other hand, we don't want to 
restrict the executive branch in a way that hampers his ability 
to carry out the mission. That, from a language standpoint, can 
be virtually impossible.
    And I think the chairman mentioned some of the areas of 
tension there--the timeline. I think the timeline is fine, 
because, as the chairman mentioned, Congress can come back and 
reauthorize. It sort of makes sure that we stay as part of the 
process, that we don't let our constitutional authority slip.
    The tougher questions are, you know, how do we define 
military engagement without simply giving the President the 
right to do whatever whenever. And I will get more into this in 
the strategy session, but I, for one, think that it would be a 
mistake strategically to excessively rely on U.S. military 
force to try and solve this problem.
    So I am looking for ways to limit that, to make sure that 
we don't have an executive that thinks that the military is the 
solution to this problem, because we should all keep in mind, 
whatever President Obama's personal position on this is, this 
AUMF would carry over to another President, which we can't be 
sure of. So I think those limitations are important, but 
difficult to articulate, which brings me to the real issue here 
today, which I think is the broader strategy.
    What is the broader strategy? I think it can be fairly 
simply defined in the sense that we need to get to the point 
where the Muslim world rejects this type of violent extremism.
    And I think one of the things that makes the strategy so 
difficult is it is a moving target. Back in, you know, 9/11 it 
was all about Al Qaeda and Al Qaeda senior leadership in 
Afghanistan, but the ideology is so much broader than that, as 
everybody here knows. It crops up in all manner of different 
places, from al-Shabaab to Boko Haram to Ansar al-Sharia.
    It is an ideology that is becoming far too deeply rooted in 
that part of the world. How do we stop it?
    Well, the short answer is we don't stop it, because the 
most dependable part of the message that Al Qaeda has is to 
basically say that they are defending the Muslim world against 
Western aggression. The last thing in the world we want is 
either, you know, a whole bunch of U.S. troops to show up to 
try to fix the problem, or just as bad, you know, a whole bunch 
of U.S. policymakers going over there and telling Muslim 
countries and Muslim governments how they should conduct 
themselves. They are not going to be responsive to that.
    This is a problem that has to be solved internally by these 
countries. And the real strategic challenge for us here is, how 
can we help without making the problem worse?
    It is a very delicate balance, and I would be very 
interested in hearing from the three of you on how we can 
engage in that, because this is an ideological struggle. This 
isn't about defeating AQAP [Al Qaeda in the Arabian Peninsula] 
or defeating Al Qaeda senior leadership, or even primarily 
about defeating ISIL. It is about stopping this just horrific 
ideology that has spread to too many parts of the Muslim world.
    How do we stop it? How do we get that to be turned around? 
Because the truth is the overwhelming majority of the Muslim 
world rejects this ideology and rejects this strategy.
    And yet, it marches on. How do we work with that to change 
that?
    And then the final key piece of this is--that makes it very 
difficult to develop a strategy, is we keep tripping over 
another aspect of conflict in that world, and that is the Shia-
Sunni divide.
    You know, we may well be in there fighting ISIL, but if 
ISIL is fighting Shia, as they were in Iraq, and the main 
reason they were so successful in Iraq is because the Sunni 
Iraqis looked at Baghdad and said, ``That is not my government. 
That is a government that is sectarian, that is protecting 
Shia, that is doing nothing for us.'' So they basically sided 
with ISIL not so much because they loved ISIL's ideology, but 
because they found it preferable to Shia rule.
    If somehow, some way, Saudi Arabia and Iran could find a 
way to peacefully coexist tomorrow, a huge chunk of this 
problem would go away. Now, that is obviously easier said than 
done, but it is part of the equation is figuring out this--the 
Shia-Sunni split.
    So I think part of the reason people are confounded 
sometimes on the strategy level is because this is a moving 
target with lots of complicated pieces. It defies a two-
sentence strategy.
    And in fact, I don't think we would be well served by 
coming up with that two-sentence strategy. It is a dynamic 
problem. We have to be flexible in terms of how we respond to 
it.
    But one piece of it is, with the U.S. engaged militarily 
against ISIL, as I think it should be, Congress should play its 
role. We should authorize that use of military force within 
whatever parameters we as a body decide.
    With that, I yield back, and I look forward to the 
testimony and the questions.
    The Chairman. Thank the gentleman.
    I ask unanimous consent that a letter that Mr. Smith and I 
received from retired General James Mattis, former CENTCOM 
[Central Command] commander, on the AUMF be made part of the 
record.
    [The information referred to can be found in the Appendix 
on page 99.]
    The Chairman. Without objection, so ordered.
    And without objection, each of your written statements will 
be made part of our record, as well.
    Let me welcome our witnesses. We are very fortunate today 
to have retired General Jack Keane, former Vice Chief of staff 
for the U.S. Army; Robert M. Chesney, Associate Dean for 
academic affairs and Charles I. Francis professor of law at the 
University of Texas School of Law, an outstanding institution, 
I would add; Benjamin Wittes, senior fellow of government 
studies at Brookings Institution.
    And, as many of you all know, Mr. Chesney and Mr. Wittes 
are both associated also with the Lawfare Blog, which is widely 
read on these constitutional national security issues.
    So thank you all for being here.
    General Keane, the floor is yours.

 STATEMENT OF GEN JACK KEANE, USA (RET.), FORMER VICE CHIEF OF 
                        STAFF, U.S. ARMY

    General Keane. Chairman Thornberry, Ranking Minority Smith, 
members of the committee, thank you for inviting me to testify 
today on the President's request for authorization of the use 
of military force. I am honored to be here again and to share 
the panel with my distinguished colleagues.
    I have been testifying here for 15 years before this 
committee, and I just want to tell you once again how much I 
appreciate the support that you provide to our Armed Forces 
through all these years and what you are doing currently. I 
have always appreciated your serious and thoughtful approach to 
the Nation's business regardless of who has been the majority 
in this committee.
    Please reference the map that I provided at the end of my 
testimony when I discuss the enemy and its geography. It was 
prepared by the Institute for the Study of War where I am the 
chairman. This was a part of a recent intelligence summary and 
is useful to understand how ISIS looks at the world.
    My remarks will be brief, highlighting the essential 
observations only, permitting the focus to be your questions.
    In principle I agree with a President who desires to use 
military force beyond a short-term contingency, requests an 
AUMF from the Congress. The current AUMFs, 2001 and 2002, which 
are obviously still in use, are, in their design, good 
documents in that it is clear why military force is being 
authorized and provides latitude for the President to determine 
how to use that force.
    Indeed, an argument can be made that the President's 
current AUMF request is unnecessary in that the previous AUMF 
provides sufficient authorization for the use of force against 
ISIS. Nonetheless, I do believe it is better public policy for 
a new AUMF based on the reality that ISIS is a different threat 
in terms of its scale, mode of operation, location, and near-
term intent.
    As to the President's current AUMF request, I would like to 
make a few observations.
    The strategy: Strategy is how the military force is used. 
This is the President's lane, along with his senior military 
commanders.
    As much as I and some Members of Congress are critical of 
the administration for not having a comprehensive strategy to 
defeat radical Islam nor an adequate strategy to defeat ISIS, 
the AUMF is not the appropriate document for that expression. A 
President needs maximum flexibility to adapt to the enemy and 
the battlefield environment, which at times may demand a change 
in strategy.
    The enemy: The enemy is ISIS, and the proposed AUMF 
describes it as ``ISIS and associates.''
    ISIS has claimed contractual agreements and a written plan 
approved by ISIS leader Abu Bakr al-Baghdadi to form satellites 
in Libya, Egyptian Sinai, Afghanistan, and also Algeria, Saudi 
Arabia, and Yemen. Some of these affiliations are likely 
aspirational, to be sure, but ISIS is exporting military 
capability to make affiliates in Sinai and Libya stronger. All 
that said, defeating ISIS does not mean that U.S. forces are 
needed to defeat ISIS satellites.
    The geography: Core ISIS is principally located in Iraq and 
Syria, but it covets territory in a broader region, including 
Lebanon, Saudi Arabia, Jordan, Israel, and lands that are part 
of historic caliphates, like the Caucasus. As such, there 
should be no geographical limitation in the AUMF.
    The time constraint: It makes no sense to me to tell our 
allies and the enemy that we are uncertain of this commitment 
of force by our unwillingness to extend it beyond 3 years. 
Congress has the authority to provide continuous assessments 
through its oversight committees, which is far more appropriate 
than a 3-year sunset.
    The ground force constraint: ISIS cannot be defeated in 
Iraq and Syria without a decisive ground force victory. There 
is no ground force in Syria, and no one knows if the Iraq 
ground force can defeat ISIS.
    Why put limits on the use of a ground force when it is 
widely recognized as the only means to defeat ISIS? Indeed, it 
may be necessary for a coalition ground force, with the United 
States likely in the lead, to ultimately defeat ISIS. The 
ground force constraint should be removed from the AUMF if the 
true goal is to defeat ISIS.
    In conclusion, the proposed AUMF is not an acceptable 
document. The time and ground force constraint must be removed. 
This President as well as our next President deserves latitude 
in the use of military force.
    Additionally, how to use the military force, or strategy, 
is not an appropriate topic for this document, as I previously 
stated. But it is essential for the Congress to provide 
oversight and, in so doing, understand the feasibility of the 
strategy actually working.
    I believe it is a matter of conscience to only support an 
AUMF if there is confidence that the strategy our troops 
execute will indeed succeed in defeating ISIS.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 55.]
    The Chairman. Thank you.
    Professor Chesney.

  STATEMENT OF ROBERT M. CHESNEY, ASSOCIATE DEAN FOR ACADEMIC 
  AFFAIRS, CHARLES I. FRANCIS PROFESSOR IN LAW, UNIVERSITY OF 
                             TEXAS

    Mr. Chesney. Chairman Thornberry, Ranking Member Smith, and 
members of the committee, thank you very much for the 
opportunity to be here today. And I associate myself with 
General Keane's remarks about the tremendous history of this 
committee and the way it conducts its business.
    I would like to make six points this morning.
    First, the draft AUMF lacks a stated purpose in its 
operative sections. This is in contrast, for example, to the 
2001 AUMF, and it is potentially significant.
    To be sure, the question of purpose is for policymakers to 
decide ultimately, not lawyers. But the lawyers, in drafting an 
AUMF, need to know what the purpose is in order to make sure 
their work product is suited to accomplishing the mission.
    And the public needs to know the purpose, as well. And so, 
as you improve upon the draft, I hope you will insist upon a 
clear statement of purpose in it.
    Second, the draft's attempt to forbid ``enduring offensive 
ground combat operations'' is a grossly indeterminate phrase on 
its face and it should be dropped. Notwithstanding examples 
given by the White House in its transmittal letter accompanying 
the draft, the language inevitably will cast a shadow of 
uncertainty over commanders' operational decisions.
    The statement by Secretary Kerry this past Tuesday 
explaining a bit about what it means in his understanding, 
referring to overnight embedding being okay but weeks upon 
weeks of some form of ground presence not being okay, I think 
underscores rather than assuages this concern. Simply put, 
commanders should not be left to guess where the boundaries 
lie.
    Third, at no point in American history has Congress ever 
simultaneously authorized the use of force to destroy an enemy 
militarily while at the same time purporting to forbid the 
Commander in Chief from using ground forces towards that end.
    In fairness, there have been several authorizations in our 
history that have been narrow in various ways. But in all such 
cases, the objective was much narrower than the military 
destruction of the enemy. Instead, these were cases in which 
the objective involved important but limited things, such as 
ending piracy against our shipping or participation in a 
peacekeeping operation.
    Of course, if the actual objective with respect to ISIL is 
not its military destruction, but instead something relatively 
more narrow yet still important, then the analogy to past 
narrow authorizations may work much better. But this simply 
underscores my earlier point about the need for clarity 
regarding the purpose of the AUMF and our mission.
    All that said, I can't say that Congress would lack the 
authority to enact such a limitation if it truly wishes to do 
so. I am simply pointing out that it would be unprecedented in 
a particular way, and it is certainly closer to the 
constitutional border line than things we have seen in the 
past.
    Fourth, I want to share my thoughts on what we usually call 
sunsets, although I am beginning to think that we should get 
away from the sunset language because of the connotation it has 
for many people that it suggests that it is predetermined that 
there won't actually be a renewal. Perhaps it is better to talk 
about them as renewal or forcing function provisions.
    The idea, of course, is to create an occasion after a 
certain period of time when the authorization, if appropriate, 
will receive the fresh imprimatur of a Congress and a President 
acting on the most recent conditions. And in this respect I 
would just point out where we are with the 2001 AUMF, which, of 
course, is still a critical instrument; it supports our anti-Al 
Qaeda operations around the world, from Yemen, to Somalia, 
Pakistan, Afghanistan, and Iraq, as well.
    It has been 13 years-plus since it was enacted, and the 
passage of time has led many to criticize it on the grounds 
that it has somehow become stale, that it has become attenuated 
as Al Qaeda has evolved. And it is a shame, I think, that we 
haven't had a past occasion where it has been clearly refreshed 
by a more recent Congress in order to avoid these kinds of 
problems, which create friction in the reliance upon the AUMF.
    Now, it is true that it did partially get refreshed in the 
National Defense Authorization Act for Fiscal Year 2012, but 
that refreshment, unfortunately, was limited to reference to 
the detention authority and--rather than being a full 
refreshment. But the point is, the experience with the 2001 
AUMF illustrates how there is something to be said in favor of 
being able to continue to operate under an AUMF if you ensure 
that Congress will, in fact, come back to it after a certain 
number of years.
    I recognize, however, that you cannot create a sunset or 
renewal provision that signals to the enemy that we are 
starting off with one foot already out the door. And so, in 
thinking about how you strike the balance here, my conclusion 
is that the better way to go is not a 3-year but a 5-year 
sunset, which also has the virtue of not landing this 
particular renewal provision on the doorstep of a newly elected 
President who may still be getting fully acclimated into the 
office and getting personnel into place.
    My next point is about the silence of the draft AUMF on 
matters of detention, which is rather striking, if you ask me. 
Another lesson of the past 13 years is that the silence of an 
AUMF on detention is itself a cause for great legal friction if 
and when the United States may decide that in addition to using 
lethal force against ISIL targets, heaven forbid we actually 
detain some in military custody for the duration of our 
conflict.
    If and when we come to that point, we will regret, I think, 
not having said something in the AUMF clarifying detention 
authority. So at a minimum, I hope Congress will consider that 
issue.
    Last, there is the question of whether all this is moot 
because the administration, though asking for this ISIL-
specific AUMF, it does continue to assert that it has the 
authority to do what it is doing already under color of the 
2001 AUMF, and possibly as well under Article 2 of the 
Constitution. I don't think it is entirely moot.
    As a municial matter, the 2001 AUMF argument and the 
constitutional argument that have been the backdrop up to this 
point, up to this very moment, are not without their 
detractors. They are far from obviously correct arguments, and 
that, in itself, creates a lot of legal friction. In so far as 
we are putting our Armed Forces into harm's way, they deserve a 
clear legal endorsement for what they are doing from this body.
    As to the particular constraints in the draft AUMF being 
moot, again, at one level, yes, as a lawyer I can explain to 
someone if they have the time and patience to listen to me as 
to why the constraints in the new AUMF, since they aren't 
present in the old one, don't really matter. But I think that, 
while true as a legal matter, it is different as a political 
and rhetorical matter, and the existence of these constraints 
in the new AUMF will cast a shadow back over the old one and 
create more legal friction. So for that reason alone I think 
this proposal really does have to be taken quite seriously.
    So let me stop there. I thank you for your time and I look 
forward to your questions.
    [The prepared statement of Mr. Chesney can be found in the 
Appendix on page 66.]
    The Chairman. Thank you.
    Mr. Wittes.

    STATEMENT OF BENJAMIN WITTES, SENIOR FELLOW, GOVERNANCE 
               STUDIES, THE BROOKINGS INSTITUTION

    Mr. Wittes. Thank you, Chairman Thornberry, Ranking Member 
Smith, and members of the committee, for inviting me to present 
my views on the President's proposed authorization for the use 
of military force against the Islamic State.
    I want to advance, I am more modest than Bobby on this, I 
want to advance only two basic arguments today, and the first 
is that the administration's draft ISIL AUMF, while it is a 
significantly flawed document, is flawed in ways that are 
somewhat different from many of the criticisms being advanced 
against it. So I want to start by separating what, from my 
vantage point anyway, is the wheat from the chaff, and sort of 
dispensing with a number of the criticisms of the draft that 
are, to my judgment at least, meritless or having significantly 
less merit than their presence in the conversation.
    So, many critics have worried that the draft AUMF would 
limit the President and his successor in prosecuting the war, 
and some in this regard, some have worried about the limitation 
on the use of ground forces; others have argued that the 
problem is chiefly the 3-year proposed sunset. I think both 
concerns are actually misplaced, at least as a legal matter, 
though Professor Chesney's point that they may have political--
operate as political constraints is certainly a valid one.
    I think it is misplaced as a legal matter for largely the 
same reason, which Professor Chesney just alluded to, which is 
that this authorization, at least as the administration 
proposes it, is not the President's only source of authority to 
use force. And so limitations in the authorization don't limit 
Presidential power to the extent that some other authority 
exists for the contemplated action.
    The proposed authorization leaves in place untouched the 
2001 AUMF, which the administration has construed quite 
broadly, which does--including to cover all of its operations 
today, and which doesn't contain a sunset provision. So the 
result is that you actually have these optical restraints that 
don't, in fact, do what they seem to say they are doing.
    So, moreover, I think it is implausible, and both of my co-
panelists have mentioned this, that the ground force limitation 
in the AUMF is, you know, quite what it seems to be even if it 
were the only source of authority, and the reason is the 
elasticity of the word ``enduring'' and ``offensive.'' And I 
think all--the resolution does not define either word.
    And there is just a lot of room for elastic interpretation 
there, and I can't imagine that an administration that wanted 
to use ground forces in any significant way would not be able 
to either define them as not offensive or define them as 
something less than enduring.
    A number of commentators have also complained that the 
draft resolution contains no hard geographic limitations that 
would contain it to Iraq and Syria. I think this is a--this 
criticism actually denigrates what is one of the virtues of the 
administration's AUMF.
    ISIL is a fluid enemy. It is by no means likely to restrict 
its activities to Iraq and Syria. And, as General Keane points 
out, it is already developing relationships with countries 
elsewhere, with groups elsewhere that, you know, would be off 
limits if a hard geographical limit were--limitation were in 
the document and the document were legally operative.
    I ask you to consider that if a similar geographic 
limitation had been inside the original 2001 AUMF we would 
never have been able to undertake, under that authorization, 
operations against AQAP, which have been so vital to American 
counterterrorism.
    All that said, I do think the administration's draft has 
serious problems, which mostly have their roots in the 
proposal's breadth and failure to grapple with the relationship 
with the underlying 2001 AUMF. Now, as a lot of people have 
noted, the document, on its face, does not appear broad. It 
seems to have all these limitations.
    But it is actually written very carefully to make the--
create the impression of significant limitations without the 
reality. And the administration's lawyers have succeeded in 
this to a degree that they are being denounced for the breadth, 
for the restrictions in the proposal rather than developing 
anxiety about its actual breadth.
    In fact, the real problem is that, despite the appearance 
of accepting restraint, the document contains virtually no 
meaningful restraints at all. And the reason for that is the 
failure to grapple with the underlying 2001 AUMF, which it 
leaves in place without any--I also have developed anxieties 
about the word ``sunset,'' but without any forcing mechanism 
for reconsideration.
    So under the administration's proposal, at least as a legal 
matter, the President would have all the authority he has 
today, including all the authority to fight ISIL under the 2001 
AUMF. And in addition to that, he would also be granted 3 years 
of even broader authority to target ISIL and its associated 
forces. And by the way, the draft defines ``associated forces'' 
quite broadly.
    Thus, the limitations on ground forces is entirely 
meaningless, since the 2001 AUMF remains in place. This doesn't 
concern me particularly because I don't actually favor a ground 
force limitation, but for those who do favor a ground force 
limitation, I think you should be particularly concerned by one 
that is there in appearance but not in reality.
    The 3-year sunset is also largely meaningless because the 
2001 AUMF doesn't sunset. And the reporting requirements, which 
are quite anemic on their own terms, are similarly empty, and I 
think that should be a particular concern to this committee.
    Second point I want to advance is that there is an 
alternative to this approach. In November of last year my co-
panelist Robert Chesney, Jack Goldsmith, Matt Waxman, and I 
jointly drafted a possible AUMF, which we sort of imagined as a 
way of sort of kick-starting a discussion on the subject.
    It did, and actually a lot of consensus developed between 
our author group and a group over at the Just Security website 
about the components of a new AUMF. Unlike the President's 
recent proposal, our proposal aimed to integrate authorization 
for the fight against ISIL into authorization for the larger 
conflict, and we tried to supplant the existing AUMF with a 
more modern document to respond to exactly the concerns that 
Professor Chesney just laid out.
    So I want to identify a few aspects of this proposal that 
are relevant, in light of the criticisms that the President's 
AUMF has received both from the right, left, and center.
    So first, unlike the President's draft, our proposal would 
subsume the current AUMF, which covers, as the administration 
and the courts interpreted, Al Qaeda, the Taliban, and 
associated forces, and it would then repeal the underlying 
document. The result is that there would be a single 
authorization for fighting Al Qaeda, the Taliban, ISIL, and all 
of their associates.
    Second, because there would be no duplication in the 
authorization, the proposal's sunset provision would actually 
means something. It would actually serve the forcing function 
that the chairman was referring to.
    Third, while the draft does not contain specific geographic 
limitations, as the President's does, like the President's, it 
does not contain that, but it does authorize force only where 
it could be used consist with applicable international law 
concerning sovereignty and the use of force, thus giving some 
territorial guidance. It would allow the sort of things we did 
with Al Qaeda in the Arabian Peninsula; it would not allow, 
say, the use of force or authorize the use of force, you know, 
in France.
    And fourth, the proposal contains significantly more robust 
reporting requirements than does the administration's draft, 
and I would urge you, even if you are proceeding off of the 
administration's draft, to look at the disparity between what 
we would have asked them to report and what they want to have 
reported. I think that difference alone is very substantial.
    So look, I have no doubt that our proposal could stand 
significant improvement in any number of areas, and there are 
aspects of it, actually looking back at it 5 months after we 
wrote it, that I would change. But our--I think our draft 
offers an approach that is far less susceptible than the 
administration's draft to the concerns that many scholars 
across the political spectrum have raised.
    And as this body considers how to authorize the conflict 
against ISIL and how--and really importantly, how that 
authorization should interact with the existing AUMF, our 
proposal may offer an alternative way forward that might 
attract a broader swath of support.
    So thank you very much. Look forward to taking any 
questions.
    [The prepared statement of Mr. Wittes can be found in the 
Appendix on page 84.]
    The Chairman. Thank you.
    And I appreciate, again, testimony from each of you.
    I guess I would like to have each of you comment on kind of 
a basic question, which is how important do you think it is for 
Congress to authorize a use of military force? I am not really 
talking about whether the 2001 covers ISIL, that is--although 
that is an interesting question I would hope we get to today.
    What I am talking about is some people argue that Article 2 
means the President can do whatever he needs to do to protect 
the country, and terrorism is a threat so he can take action 
whenever and however he wants to. On a more practical level, 
some folks say, ``He has been bombing for 6 months. Why do you 
need to act now? You know, just don't worry about it. Let it go 
on.''
    So, Mr. Wittes, starting with you, I would like to hear 
your views about the constitutional and legal importance of 
Congress acting to authorize a President's use of military 
force.
    And then, General Keane, by the time we get back to you I 
would like to hear how that affects our troops, how they see 
Congress acting or not acting to authorize the missions on 
which the Commander in Chief sends them.
    So if we can just go backwards up the line.
    Mr. Wittes.
    Mr. Wittes. Sure. I mean, look, at a practical level--at a 
basic, brass tacks, practical level, the military is going to 
do what the Commander in Chief orders it to do, assuming, you 
know, it is lawful order, irrespective of whether this body 
passes a document or not. And so at that level it is probably 
true that in some very tangible, immediate way it doesn't 
matter all that much.
    I would say, however, that it matters very much for three 
reasons. One is, I just have a moral problem with the idea of 
asking U.S. troops in a--to engage in a long-term set of 
military operations without them knowing that the political 
branches of their government are behind them, and I think it is 
just not an appropriate thing for--it is not an appropriate 
message to send to our own people.
    Number two, at the level of--I don't know if it is 
constitutional law, but it is certainly constitutional hygiene. 
Relying on a more than 13-year-old document that is about a 
different organization in a different part of the world to 
conduct military operations now for a different reason, you 
know, is I think that is a very bad way for Congress and the 
administration to behave.
    It is not good to have legal authorities that you have to 
stretch and torture to have them reach the problems that you 
face. We should go through the exercise, as a democratic 
polity, of describing the war that we actually want to fight 
and doing so.
    And then the third reason, which I think is a defense of 
this body's prerogatives with war powers you know, if you all 
believe that, in fact, the definition of the parameters of a 
war is not something that this body has, that is not something 
you have a stake in, it is not, you know, part of why you got 
elected to office, then fair enough. You know, maybe you 
shouldn't be involved in the conversation.
    But if that sounds like a sort of insulting thing to say, 
and of course this body has a role in defining the parameters 
of--scope of military action overseas, and of course it has an 
oversight function, then this is a critical aspect of this 
body's engagement with its own constitutional responsibilities 
in this area.
    Mr. Chesney. Mr. Chairman, passage of an AUMF specific to 
ISIL will signal resolve and commitment of this country both to 
our allies, which is a critical matter, and to the enemy 
itself, which is an even more critical matter. It will also 
signal to our troops and our commanders this institution's 
investment of its own political capital--all of you and all 
your colleagues, all of your political capital being put on the 
table in support of what they are being asked to do.
    And I think all that matters as a practical matter very 
much in terms of that critical function, the legitimacy of the 
effort and the perception that it is going to be sustained over 
time to accomplish the mission.
    Turning to the particular angle the chairman mentioned, how 
does this interact or what does it say if we don't do it and 
Article 2 authorities are being relied upon in the background 
separate from the 2001 AUMF? Article 2 national self-defense 
authorities of the President to use military force in defense 
of the country are broad and important, but they are far less 
capable of marshalling the credibility of this government and 
crystalizing public support than the ability that this body 
has, that Congress has, to pass an AUMF.
    And it is also clear, as been alluded to, with the passage 
of time strict reliance on Article 2 alone, if there is no 
authorization that plausibly supports what is happening, begins 
to become more and more problematic with time's passage and 
generates legal friction, as I mentioned in my opening remarks.
    I think that at this stage, now that the issue has been put 
to Congress, a failure to act, a failure to authorize would put 
us in an even worse spot than we were--in terms of the degree 
of signals of unity by this government supporting this 
mission--than where we were a month ago when we were carrying 
on these operations strictly on the President's combination of 
Article 2 authorities and the 2001 AUMF.
    At this stage I do think Congress needs to step up with 
some appropriate endorsement if, indeed, it believes in the 
mission.
    General Keane. Yes. Mr. Chairman, it is indisputable the 
President has the authorities to do what he needs to do in 
terms of military force. And look, and our troops, they are 
always going to respond to the orders of their officers, take 
on the most difficult tasks.
    Something has really happened in the use of military force 
and our troops' reaction to it, in my judgment, because I 
transcended from the pre-9/11 military to the post-9/11 
military; I have been very close to both of it. And, you know, 
pre-9/11 we were, to include much of World War II, this was 
always about helping somebody else. And incredible expenditure 
of national treasure by the American people to make the world a 
better place and achieve security and stability for others, 
even though maybe we may not have been directly involved.
    And morale was always high. When the troops were off doing 
something they have a sense of purpose about it, they have a 
sense of accomplishment, they have an incredibly intense shared 
comradery with each other, and being associated with people 
that are drawn--that not only have the motivation to do what we 
are asking them to do, but actually have the wherewithal to do 
it. And that is very different.
    Post-9/11, quite different, because this has been and is 
today all about the American people. And our troops get it. We 
have a 9/11 generation in the United States military as a 
result of it. The Central Intelligence Agency has a 9/11 
generation in it as a result of this.
    They have a dogged determination to succeed and make this 
right for the American people. So that aspect of our troops and 
their commitment to do what is asked of them is quite 
extraordinary. And I know you know that; I am just reinforcing 
what I think you know and trying to find my own words to 
explain it.
    But this is a pluralistic, democratic society, more 
democratic than any other society on Earth. This government is 
not just about the executive branch.
    You are the representatives of the people of this great 
country. It would never be lost on our troops that you are part 
of the authorization for the use of military force when we are 
conducting a campaign that will be protracted, and that is what 
this is.
    So I absolutely believe this is the right thing to do, to 
come together, to show the determination and resolve, and to 
back the orders of the President of the United States, and 
certainly back the execution of those orders by our troops.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to focus on the broader strategy question, because I 
think that is really, I mean, that bleeds into the controversy 
over the AUMF is the disagreement over strategy, you know, how 
limited should it be, how open should it be? This is a moving 
enemy, as has been noted by many.
    The 2001 AUMF morphed in a variety of different directions, 
primarily because the enemy morphed. And the enemy here is the 
broader ideology.
    And I am wondering if any of you could shed some light on 
the sort of damned-if-we-do, damned-if-we-don't situation of--
this is a military issue. You know, I have heard people say, 
you know, ``There is going to be no military solution to this 
problem.''
    And I know what they mean. I also know that they are wrong.
    What they mean is that the broader, you are not going to 
win the ideology, you are not going to kill your way to 
victory. I mean, many generals have said it, General McChrystal 
most notably.
    But there is a clear military element to it. We have got to 
stop the various groups from gaining ground, from launching 
terrorist attacks, and killing people. And the military is 
going to be part of it. But at the same time, the more we 
engage, the more that helps recruitment.
    What can we do to begin to help turn around this 
ideological problem? Now, I know that the answer to that is to 
have strong, moderate Muslim voices that reject this ideology 
and offer a reasonable alternative, but I am not exactly 
holding my breath waiting for that to happen because they have 
struggled.
    So what can we do in the U.S. to help the broader 
ideological struggle? Because otherwise we are just going to 
be--you know, it started in Afghanistan and Pakistan and Yemen, 
it is Libya, it is Somalia, it is Nigeria, it is, you know, 
Mali. I mean, it is going to be everywhere and it is going to 
pop up.
    You know, people have been criticized, the whole whack-a-
mole strategy. Sometimes there are moles that need to be 
whacked, and I have got no problem with that, particularly if 
they are getting ready to whack you first.
    But that doesn't get to that broader ideological struggle 
of how we get the Muslim world to comprehensively reject this 
ideology, or more to the point, what we can do to help with 
that. Even the own--my own phrasing of that question was 
wrong--how we can force them to change their mind.
    They are not going to like that, because historically the 
Muslim world is not fond of the West. They have got some decent 
reasons for that and some not-so-decent reasons for that. But 
the bottom line is, they are not going to listen to us coming 
in and telling them what to do.
    But what role can we play in winning that broader 
ideological struggle? Otherwise, you know, 20 years from now, 
you know, a new Armed Services Committee is going to be talking 
about some other country, I won't name one because I don't want 
to, you know, predict the future in that way, but it is going 
to just keep evolving and moving and moving and moving as long 
as this ideology is not defeated and it is broadly acceptable.
    So what can we do to nudge it towards, well, if not 
disappearing, at least reducing?
    General Keane. Well, I will take a run at it.
    You know, I have felt since 9/11 we have never had a 
comprehensive strategy to defeat radical Islam. I always felt 
the Bush administration made a strategic error in wanting us 
all to go back and watch the New York Yankees. I am a hometown 
New Yorker, I apologize, not for the New York Yankees.
    But the fact is we have never, ever dealt with the broader 
issue. And the reality is, yes, you are absolutely right, we 
have ISIS in front of us just like we had core Al Qaeda in 
Pakistan initially and Afghanistan, and there will be somebody 
else after that if we don't come to grips with the larger issue 
itself, and that, I mean, I think is a comprehensive strategy 
to deal with radical Islam and----
    Mr. Smith. Got that. What I am asking for is that 
comprehensive strategy----
    General Keane. Yes, and I am talking about it. So if you 
look at a map and you see that radical Islam has morphed into a 
global jihad, it goes from Western Africa to Northeastern 
Africa all through the Middle East into the--into Afghanistan, 
Pakistan, Southern Asia, and Southeast Asia in varying 
different degrees of depth and violence.
    But the one thing that they all have in common is a 
commitment to an ideology, the central point that you are 
making. Most of these movements are about overthrowing the host 
country government because of the grievances that they have, 
but they use jihad to achieve those ends.
    So when I look at it--and this is Fordham University Jesuit 
training, which you are familiar with, sir, and just take a 
logical approach here. If you have got a global problem on your 
hands, what I think this is, we should have a global response 
to that problem.
    This isn't about just the United States. There is no way 
that we can deal with this problem without enlisting a global 
response to it.
    I think what we can do here is, what we have historically 
done, is provide leadership. Not telling people how, but 
setting the framework and the stage to move forward in global--
in a global alliance to deal with this.
    And that is understanding the ideology. That is working 
against it.
    You know, I believe strongly that we are making a serious 
strategic mistake in not dealing with radical Islam and letting 
the moderate; when you understand what is the struggle, the 
struggle is inside Islam, dealing with these--with the radicals 
who take a very literal interpretation of the Quran and the 
Prophet's writings, some of it going back to medieval times, as 
we know, and they are battling against the moderates and the 
traditionalists, which is the overwhelming majority.
    When we refuse to deal with this, the name of it, which I 
have less problem with, but more problem with explaining it, 
and really laying out what this is, we permit the moderates and 
traditionalists not to have to explain it themselves. They are 
the theologians here.
    We are actually dealing with people whose ideology is 
steeped in theology. We need those clerics who are opposed to 
that radical theology to explain why this is wrong, and it 
doesn't get done.
    And that is a serious mistake, and we are tolerating that 
mistake. We should not let them off the hook in dealing this. I 
think that is what al-Sisi was trying to do as a national 
leader is to reach into them and to get their attention and 
say, ``This is our problem, but it is more your problem.''
    Mr. Smith. I am sorry. That is a great answer. We have got 
a lot of other people to get into--to have the opportunity to 
ask questions.
    I am sorry, gentlemen. If you have an answer to that, if 
you could submit it for the record that would be great. I want 
to let some other folks ask some questions.
    Thank you, General Keane.
    [No answers were available at the time of printing.]
    The Chairman. And I just have to reflect that at least as 
far back as 2007 and 2008, when Mr. Smith chaired the what we 
now have Emerging Threats and Capabilities Subcommittee and I 
was a ranking member, he was on this issue, how do we battle 
this ideology, which I share the frustration of both of you. We 
really haven't been able to do that yet.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And I thank the panelists for being here today to talk 
about the President's AUMF.
    And I would like to make a couple points, and then 
probably, Dean Chesney, I am going to come back to you.
    You know, the fact is it is so vague, and y'all have 
already commented on that, and whether it should be expanded 
beyond ISIL, as to what groups could be a threat, what groups 
need to be fought and defeated. Let me make that point.
    Also, the issue of sunset, whether it should be sunset or 
not. I was in the Congress--I have been here 20 years--I was 
here at
9/11. I was part of this committee at that time. I remember the 
anxiety of the American people--and also those of us in 
Congress, by the way, that we had to do something, we had to 
give President Bush the authority to fight this enemy that had 
done so much damage to America. So we passed the AUMF for 2001 
and then a year or two later we passed another AUMF for Iraq.
    Well, I bring that up because we are still there. If there 
had been a sunset with either of the two, do you think, Dean, 
that President Obama would have thought he had the authority to 
bomb Libya?
    Bob Gates, the Secretary of Defense, was sitting exactly 
where you are when my good friend Randy Forbes, who has now 
left the committee for another meeting, asked Secretary Gates, 
``If Libya had dropped a bomb on New York City, would that be 
an act of war?'' He never answered. He never answered.
    So the point is that Mr. Obama did not come to Congress in 
any way to say to the Congress, this committee or any other 
committee, that we have got a problem with Gaddafi and Libya 
and we are going to attack. That is what has got the American 
people concerned not just about Mr. Obama, but any President 
that has any type of authority that he or she can turn their 
nose up to the Constitution.
    And we are complicit, as a Congress, if we give them such 
authority that there are no limits to that authority, and 
actually, there are no end points to the strategy that an 
administration--forget whether it is Obama administration or 
another administration--that we become complicit, as Members of 
Congress who uphold our hands and say, ``We will support the 
Constitution of the United States,'' and we know the 
requirement of the Constitution as it--excuse me--as it 
reflects to war powers.
    So my question to you is that if these 2001 and 2002 had 
had a sunset, do you think that Mr. Obama would have felt that 
he could bypass Congress and bomb a foreign country? Because my 
belief is, as a non-attorney, that if he had done that then we 
get into international law, that I don't think any nation, as 
great as America is, should have the power to just decide to go 
in and bomb another country because we don't like their 
leadership.
    And so, therefore, I think the AUMF needs to be vetted very 
carefully as we move forward. But I want to ask you--if you got 
a minute, give it to you, I want to ask you that if we had 
sunsetted those two AUMFs, do you think Mr. Obama would have 
felt he had the justification to bomb Libya?
    Mr. Chesney. Sir, you are raising a number of great 
questions. If there had been sunsets for the 2001 and 2002 
AUMFs, and if those moments came and for whatever reason those 
authorizations were not renewed so that they had gone away, and 
we reached 2011, when, as we did, the administration deployed 
our military to use force in Libya, I actually don't think it 
would be any different than what actually happened, because at 
that time there was no claim by the administration that what it 
was doing in Libya was under color of either of the existing 
AUMFs.
    Instead, it was a pretty broad claim of Article 2 authority 
inherent in the President. So I think we would have seen that 
same claim being made, for better or worse.
    That claim does illustrate the breadth with which this 
administration understands its Article 2 authority to act 
without your participation to be. That was not a situation 
where there had been an attack on the United States, or at 
least that that was being claimed as the basis for it.
    Instead, it was about the enforcement of the U.N. Security 
Council resolution, foreign policy interests that were very 
important, humanitarian interests that were important, but none 
of which are traditional bases for Article 2 claims of 
authority to deploy the military.
    The Chairman. Thank the gentlemen.
    And just to alert members and witnesses, because we are the 
largest committee in Congress I have to be pretty strict about 
the time limit, so I appreciate your understanding on that.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all very much for being here, for your 
service, particularly General Keane, and for your insights.
    I want to actually turn to something that maybe we have a 
little more control over, and that is the reporting mechanism.
    And, Mr. Wittes, you talked about that.
    General Keane, you yourself mentioned in your remarks or in 
the article that we were 3 years into a failing strategy with 
the war in Iraq, and you talked about the adaptiveness, and I 
appreciate that, in terms of our military.
    But I guess I am looking for what language you think is 
appropriate in terms of the reporting mechanism to the 
Congress? Because there are a few of us who were here at that 
time and, I don't know, how do you think we did?
    How did we do in terms of that oversight role? Because if 
we were 3 years into a failing strategy, had difficulty asking 
the questions, and, frankly, a great deal of difficulty getting 
answers, what is it that we need to do now?
    Mr. Wittes. I am very glad you asked that question, because 
I actually think the reporting requirements that the 
administration wrote into its draft AUMF should reasonably be 
regarded as insulting to--probably less to the committees of 
jurisdiction than to the larger Congress, and certainly to the 
public.
    For the last number of years there has been a quiet but 
occasionally erupting tension between--I see--sometimes see 
it--I don't know if it has arisen on this committee, but it has 
certainly come up on--with your Senate counterparts, where 
people have wanted to get a list of groups that are covered by 
the AUMF, and the administration has actually not produced a 
list of groups that the AUMF authorizes force against. And I 
think this is kind of a mind-boggling thing that you have a 13-
, 14-year-old war in which the position of the executive branch 
is that there is no--you know, there is no public list of the 
group of people that we are at war with.
    And so I think, at a minimum, the reporting requirements 
should require public reporting of the list of organizations 
that the administration considers affiliates, associates, co-
belligerents of the organizations that it is authorizing force 
against.
    One of the reasons to integrate the existing AUMF into the 
old AUMF is so that you can apply those reporting requirements 
to Al Qaeda, the Taliban, and their associated forces----
    Mrs. Davis. And in a way, I mean, we are saying associated 
forces, but not including persons, as in the 2001, as well.
    Mr. Wittes. Well, there is a--there is some pretty broad 
language here about who counts as an associated forces, but I 
am saying, you know, that is a separate fight. The question, 
once you have decided somebody is an associated force, who gets 
to know that, right? And I think this--the Congress should be 
advised of who is an associated force, and unless there is some 
compelling national security reason to keep it secret from the 
public, that should be provided in public forum, as well.
    Secondly, the administration's draft talks about--I don't 
have the language of it in front of me, but it talks about a 
semiannual report or a twice-annual report on specific actions 
taken under the authorization. Now, again, there is no clarity 
about what ``specific actions'' mean, and there is some 
question if you have duplicative authorizations whether you are 
taking it under this authorization or under the other one that 
doesn't have the reporting requirements.
    So I think that, you know, in the draft that Professor 
Chesney and our co-authors and I wrote, we laid out what we 
thought were a sort of robust and reasonable set of reporting 
obligations. The text of that is in my prepared statement, and 
I still think those make sense, honestly.
    Mrs. Davis. Yes.
    Time is running out. Mr. Chesney, I appreciate that you 
would agree with that.
    General Keane, can you comment on the reporting and the 
role of the Congress, and again, these 3 years into a failing--
--
    General Keane. I don't have any problem with reporting 
requirements. I do believe the mechanism for oversight of 
military force being applied is already here, and your 
committee is central--central to that. I think it really has 
much to do with the rigor of that.
    The 3-year failed strategy we had in Iraq, I don't suggest 
that the committee probably would have uncovered initially that 
the strategy was not going to work, but I think when the 
evidence was there that it was not working I think the 
committee does bear some responsibility to do thorough 
assessments. If these are the goals and objectives we are 
trying to achieve, how are we doing against these goals and 
objectives? And then that kind of analysis was there and there 
was evidence that the strategy was failing.
    So I think the mechanism is really already here. I think it 
has to do with rolling up the sleeves and doing rigorous 
assessment and analysis.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today.
    And, General Keane, I want to thank you for your service on 
cable news. It is always really so solid, the information you 
provide; it is so meaningful, and so important to the American 
people.
    It is particularly meaningful to me. I have four sons 
currently serving in the military of the United States, and 
every time I see you on the air it is a reminder to me of how 
capable and competent the American military is. And so I want 
to thank you for that.
    I also would like your input on what suggestions do you 
have for the AUMF, and what language should there be for the 
flexibility for our President to be able to lead us to victory?
    General Keane. Well, I think the language in the--that we 
found in the other two AMFs--AUMFs, excuse me, where we are 
talking about using the appropriate and necessary force, a very 
short statement to that effect, really is appropriate.
    As I stated in oral statement, I don't believe we need, nor 
should we have, a time constraint in it. Why cast any doubt 
about our resolve? Why do that?
    This administration has a pattern of doing that in the 
past, as we recognized when the President I think rightfully 
made the commitment to escalate our forces in Afghanistan. In 
the same public policy statement he announced the termination 
of that force, as well. I think that is an unnecessary flag to 
our enemy about our lack of commitment, and I also think it 
does much the same with our allies.
    So I would avoid that for those reasons. And I do believe 
that, given the authorities the Congress has and the oversight 
responsibilities, you can get at this another way.
    I would agree with Mr. Chesney that if you kick this thing 
down the road a little bit, a few more years, then some of that 
does go away, in terms of the lack of resolve and commitment. 
But 3 years I think is unacceptable.
    The ground force constraint I think has to be absolutely 
removed because of what we are dealing with. We are facing an 
enemy that, in the front of us, we have to deal with largely 
militarily. At the same time we are trying to counter their 
finances, undermine their ideology, but this right now it is a 
central military problem.
    And we already know that the only way that we can defeat 
this force is with effective ground operations. So anything in 
this document that would cast doubt on our ability to conduct 
decisive and effective ground force operations seems to me to 
be misguided and it should not be in the document.
    I would bow to my--Mr. Wittes on my left knows far more 
about the intricacies of the legality of this than I do, but 
I--and the fact that the President would still have the 
authority even though the appearance of it would be that he 
does not. I would not want that confusion. I don't want our 
troops to have that kind of confusion. It doesn't make any 
sense to me.
    And those are the essential issues for me. I am for a 
President having the latitude to conduct military operations 
without these constraints on it.
    Mr. Wilson. And it does appear to be a limitation on ground 
troops, but with loopholes, that certainly has to be of concern 
to the American people.
    And, Dean Chesney and Mr. Wittes, it has been indicated 
that y'all have provided the language for AUMF. Has that been 
provided to the American people and can you give a summary?
    Mr. Wittes. So this was written back in November in a post 
on Lawfare by the four of us. We had written a draft AUMF, a 
much more complicated draft, about a year and a half earlier 
than that, and so this was a response to some of the criticisms 
that we had received, and also a response to ISIL, which had 
emerged in the meantime.
    And what we tried to do was to authorize force against the 
Taliban, Al Qaeda, ISIL, and their associated forces. We did 
not have a ground force restriction, in which I don't think any 
of us particularly believed, and we did have a sunset provision 
that was also 3 years.
    But I think there is a very simple solution to the problem 
of triggering, flagging for the enemy a lack of resolve: Make 
the thing longer and don't call it a sunset.
    Mr. Wilson. Thank you.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Chairman. And a big 
thank you to you for conducting this hearing and, I understand, 
another hearing coming up next week or thereafter on the 
military side of this, what might be necessary.
    We are doing exactly what we should be doing as Members of 
Congress. In my view it is absolutely essential for Congress to 
act. To use the 2001 or the 2002 AUMF as a reason for a new 
war, actually, a war that was declared over in Iraq is, in my 
estimation, just dead wrong.
    And we have a responsibility. We represent the American 
people, 535 of us plus one, the President, and we have the 
obligation to deal with this. Not easy. Easier to duck. But it 
is our responsibility.
    With regard to the 2001 AUMF still being in place and the 
sunset, the 2001 AUMF proves the reason for a sunset; an 
unending war can't continue it. We have got to deal with this, 
and the sunset seems to me to be absolutely appropriate in 
that.
    And 3 years requires that the next Presidential election be 
about war. And that is a really good thing for the United 
States to debate and to discuss.
    With regard to the issue of, and this is coming to a 
question, the issue of limitations of the use of boots on the 
ground, which the President says he wants to limit but then 
writes in such a way as probably not limiting, is there any 
debate between our two esteemed lawyers and general about the 
ability of Congress to use the purse to limit the use of ground 
troops, for example, no money for infantry brigades, Army 
brigades, artillery, and et cetera, but perhaps money for 
special forces and the like? Is there any doubt about the 
ability of Congress to limit using the purse?
    Mr. Chesney. I don't think there is any serious doubt about 
that. I think amongst those who debate these war powers issues, 
one common touchstone is that the power of the purse, there is 
very little Congress can't accomplish with it.
    We can imagine a bizarre hypothetical where somehow that 
power is leveraged to say that the President is not the 
Commander in Chief but instead fill-in-the-blank will have 
command. But obviously nothing like that sort is being 
contemplated or talked about here. So as long as you are away 
from that core superintendent's function, I think the power of 
the purse gives you a lot of leverage if it can be used in a 
particular way.
    Mr. Garamendi. Any debate about that amongst the----
    General Keane. No debate from me. I mean, you have done it 
before. The Congress stopped a war in Vietnam. It unauthorized, 
no longer authorized our advisors, no longer authorized the use 
of air power, and that war ended.
    I think it is the most powerful mechanism that you actually 
have.
    Mr. Wittes. I have nothing to add to that.
    Mr. Garamendi. Well, given that, and given the debate which 
will go on forever about how you define ``boots on the ground'' 
or limitations on what can actually be done, it just seems to 
me that we could very simply say, ``You have the power to bomb; 
you have the money to bomb; you have the money to do special 
operations or all of the other things, but there is no money 
for the brigades, infantry, artillery, et cetera.'' And I think 
that is a good, clear way to limit it.
    It also gives this committee and the Congress the 
opportunity at any moment to change its mind and appropriate 
the money for those purposes. So we would be constantly and 
appropriately, therefore, engaged in the ongoing issue of the 
war and its outcome.
    The other issue that is, I think, one that we are going to 
have to deal with is this issue of limitation. As I said 
before, I think it is absolutely essential. Three years is 
perfect, in my view.
    I know you disagree, that maybe the next President ought 
not have to deal with it immediately. I strongly disagree, that 
the next President must deal with this up front in the 
campaign, tell the American people whether they want war or not 
and how they would conduct it.
    The other issue is the geography here. We are going to go 
round and round on geography, and I again, my personal view of 
this is it must be limited, and probably doing that by clearly 
stating who we are at war with.
    And a final point, and I guess this won't be a question but 
rather a comment, and that is, General, you are absolutely 
correct about the ideological war that we must be engaged in 
also. It is not just going to be a military war; this is a 
question about ideology and our necessity of dealing with that 
reality.
    Thank you, gentlemen, for the clarity on the power of the 
purse.
    The Chairman. Mr. Franks.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    General Keane, one of my primary concerns above what is 
contained within the AUMF is the fact that I still don't know a 
clear and coherent strategy upon which we will use the AUMF. 
The President has not outlined--in fact, at one point he even 
said we didn't have a strategy, so I have a deep concern about 
whatever the AUMF ends up being, what is going to be the 
strategy that goes along with that.
    I would love to hear what you have to say about that.
    General Keane. Well, you know, I agree with you. And it is 
pretty frustrating about what is being said and also what is 
not being said.
    I think, clearly, just dealing with ISIS and dealing with 
Iraq and Syria, what is the strategy to degrade and destroy, 
defeat is a much better word than destroy, ISIS? We are saying 
to ourselves that we have an Iraq strategy first, which is to 
reclaim the territory that is lost.
    To do that, we know we need ground forces to do it. The air 
power has largely stalled, effective air power has largely 
stalled ISIS offensive campaigns, no longer really taking 
territory in any large way in Iraq.
    It has taken territory in Syria since the bombing campaign 
began. That is another story.
    We are depending on local indigenous forces to be that 
ground force, but then we also know that we have problems with 
this force, that it is not a homogeneous force. It is 
Peshmerga, it is Shia militia, it is Iraqi Security Forces, it 
is Sunni tribes.
    And we also know that we want air power to be effective, 
but we are not going to put any boots on the ground to help 
that force be more effective. My simple way of dealing with 
this: If you think you have a weak hand, do what you can to 
strengthen that hand.
    What we want to avoid doing is what the Congressman from 
California would like to constrain the President from doing. We 
all want to avoid using combat brigades to go deal with this. 
We want these people, the Iraqis, to bear the burden of this, 
not us, on the ground. You won't get anybody in the military 
signing up for sending large combat brigades in there.
    But that strategy, I think, is flawed because we are not 
providing enough assistance to this local indigenous force that 
is weak, and by that I mean is special forces who can go with 
them on the ground, forward air controllers to help them, 
significant amounts of Apache helicopters, AC-130 gunships, 
JSOC [Joint Special Operations Command] direct action forces to 
go kill leaders like we do in Iraq and Afghanistan very 
successfully, on the ground, I may say. And these are questions 
I think that you can ask the military leaders when they come 
forward.
    In Syria, sir, there is no ground force.
    Dr. Fleming. Okay. And I appreciate that and----
    General Keane. There is no strategy in Syria to defeat 
ISIS. We do not have a strategy to defeat ISIS in Syria.
    Dr. Fleming. So it really is kind of based on a fantasy 
ground force. I get that, yes, we want to stand up or re-stand 
up the Iraqi forces, and that might work. But in Syria, and now 
I believe ISIS has moved into Libya, you know, we voted last 
year for the Free Syrian Army. We still don't know who the Free 
Syrian Army that we are arming and training, which could take 
years and it is small in number--even the President himself 
said they were pharmacists and doctors.
    So the question here is, without leadership from the United 
States and without boots on the ground that we can trust from 
an army that is well-trained and well-equipped, how in the 
world does this vague strategy work?
    General Keane. Well, it is not going to work. We have a 
plan to reclaim the territory that was lost in Iraq and 
hopefully return the sovereignty of Iraq to its borders. There 
is a plan for that.
    But what you are not being told is that the strategy in 
Syria is really only to degrade ISIS and only--and to contain 
it, because that is really what is on the table. The Free 
Syrian Army, we lost the opportunity to help them when they 
were--when they had the momentum in Syria and when they needed 
our help.
    They are down to several brigades. We are going to train 
3,000 to 5,000 a year of new recruits. Heck, ISIL gets that in 
a few months. It doesn't even match.
    There is no reality to that strategy if you accept the 
President at his word that he intends to destroy ISIS. What he 
intends to do is degrade it in Syria, contain it, and defer 
that problem to his successor. That is the strategy in Syria.
    Dr. Fleming. Thank you. I yield back.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, I thank you for being here today.
    And, of course, thank you, Mr. Chairman, for bringing this 
hearing--this issue to our hearing.
    I am encouraged by the fact that we are finally having this 
debate because I think Congress failed last fall to not only 
have an honest discussion about our overall strategy to defeat 
ISIS, but we also failed to discuss the underpinning 
authorities for that strategy. I think regardless of where you 
come down on this issue, it is important that we have the 
discussion, so I am glad that we are here.
    I want to first off just say that the paramount importance 
is to make sure that our troops who are sent into harm's way 
know that all of America is behind them. When they go to battle 
and they go to fight and they go to potentially lay down their 
lives for this Nation, they need to know that we are behind 
them and that they--that we will be there to help provide them 
with the resources that they need to do the job that we ask 
them to do.
    That said, I think the AUMF is critically important. I 
actually voted against the repeal of both the 2001 and 2002 
AUMFs in the past when they came up on the floor as amendments 
to NDAA [National Defense Authorization Act] and defense 
appropriations not because I fully support them, but because 
there was no alternative at the time.
    Now that we are looking at this new alternative, I like the 
fact--the proposal that this new AUMF should subsume and we 
should get rid of the 2001, and I agree with that.
    What I do want to do is to drill down on the geographic 
boundaries portion of it, and specifically the Brookings 
Institution's proposal to, instead of having a geographic 
boundary, a legal boundary, one that is in conjunction with 
international laws for the use of force and sovereignty.
    So could you--is it Wittes or Wittes?
    Mr. Wittes. Wittes.
    Ms. Duckworth. I apologize.
    Mr. Wittes. No worries.
    Ms. Duckworth. Mr. Wittes, could you sort of drill down on 
that for me a little bit? Let me just give you a specific 
example and see if I understand this correctly.
    This legal boundary would basically say to American 
commanders on the ground, whom we should trust, by the way, 
because we put them in charge and they know what they are doing 
when it comes to military, the use of military force, so we are 
telling them that in Iraq and Afghanistan, because we have the 
cooperation of those nations' governments, ``You can be in 
there, you can do your job,'' but you can't go and invade 
Pakistan without coming to Congress and Congress authorizing 
that first because there is--we don't have the invitation of 
the government of Pakistan to come conduct operations within 
their territory.
    What does this do for countries or failed states; places 
like Yemen, places like Somalia back in 2001? You know, if 
these guys run into--or in Yemen, does this then put 
constraints on our military commanders and on our troops to not 
be able to go after ISIS forces in Yemen, for example?
    Mr. Wittes. So I have got 2 minutes to answer this 
question----
    Ms. Duckworth. Go ahead.
    Mr. Wittes [continuing]. And I am going to do my best.
    Ms. Duckworth. You have the full 2 minutes.
    Mr. Wittes. So, look, the--what we said in the proposal was 
that Congress authorizes action in any location that it--that 
action--military action would be appropriate and lawful under 
international law of sovereignty and the use of force. Now, in 
circumstances, for example, where you would implicate the 
President's Article 2 self-defense authorities, of course he 
wouldn't have to rely on this authorization. So in the exigent, 
imminent defense situation, he can operate under his own 
authority to the extent that he needs to.
    There are two ways to satisfy the sovereignty barrier under 
international law. One is if you have the consent of the 
country in question. Yemen tolerates our conducting drone 
strikes against AQAP; Pakistan has sometimes permitted our, you 
know, our use of drones to strike targets in Pakistan. That 
alleviates--ends the sovereignty problem.
    The other way is that the U.S. position is that it has the 
authority to use force against a--on the--against--on the 
territory of a non-consenting state when that state is either 
unwilling or unable to contain and deal with the threat that is 
emanating from its soil against us.
    And so what this would say is if one of those two, that is 
if that is your position as the administration on your 
international authority to use force, if you are within it then 
you are within Congress' blessing and authorization. But we are 
not giving you authorization to do stuff that would otherwise 
violate international law as you understand it.
    Ms. Duckworth. Very good. Thank you very much.
    The Chairman. That was impressive.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, one of the things that we are being asked to do 
is to repeal the 2002 authorization for the use of military 
force. As you know, the 2002 AUMF with--concerning Iraq found 
that Iraq poses a continuing threat to the national security of 
the United States and international peace and security in the 
Persian Gulf region, and because members of Al Qaeda are known 
to be in Iraq.
    I would like your opinion, because it would seem to me that 
even though the Saddam Hussein regime has been removed from 
power, that the objectives in the 2002 resolution remain: 
protecting both United States and Iraqi minority groups as well 
as ending terrorism in Iraq. All of those objectives are still 
in doubt, and therefore it does seem that there may be a 
compelling legal rationale for keeping the 2002 AUMF in force 
since the President obviously is finding that he has very broad 
authority under it currently.
    So do you believe that leaving the 2002 AUMF concerning 
Iraq in place would be a conflict, and would you recommend 
removing the text that repeals the 2002 AUMF? Any thoughts?
    Mr. Chesney. So when the administration revealed that it 
was relying on the 2002 Iraq AUMF as part of its basis for its 
operations in Iraq, this precipitated a lot of debate amongst 
folks about whether this is a persuasive claim under that 
authority. The objectives, as you say, the objectives of the 
2002 authorization are still present.
    The question is, the authorization was specific to the 
threat posed by Iraq. What do we mean by that? What is the best 
reading of that authorization?
    If it means threats to the United States that are emanating 
from within, or that involve something happening within the 
borders of the state of Iraq, that is an argument for saying 
that it fits, and I guess that is the argument that the 
administration adopted. If it is read, instead, to mean that 
Iraq in 2002--that is referring to Saddam Hussein's regime and 
the government of Iraq as the threat--then it doesn't fit well. 
And that was a view that was a little bit more plausible to me, 
but reasonable lawyers, including some of my colleagues on 
Lawfare, we disagreed on this point.
    The interesting question today is, is there anything you 
get only with the 2002 authorization that isn't separately 
covered either by the 2001 authorization against Al Qaeda or a 
new authorization that this body may produce against ISIL? And 
I am hard-pressed to think of what that might be.
    We would have to imagine a situation in which force needed 
to be used against some entity that was not plausibly an 
associated force of ISIL nor an associated force of Al Qaeda. 
We might imagine falling into that category Shiite militia, 
Hezbollah, the groups that are on the Shiite Iran-sponsored 
side of things.
    We are not, to the best of my knowledge, at least in the 
public record, we are not currently using force or 
contemplating the use of force against them. Indeed, in some 
respects we are fighting in the same direction against ISIS 
with those entities.
    You can imagine, though, a situation where it does seem 
appropriate, a new fact pattern. In that circumstance, the 
President's Article 2 authorities would be ample to at least 
initially respond, and I think the wiser course would be to 
come back to this body at that point if something more than 
Article 2 were needed.
    Mr. Turner. Other thoughts? Any other thoughts on the 
panel?
    Mr. Wittes. I mean, I very much agree with that.
    Mr. Turner. Excellent. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I wanted to start by 
thanking you and the ranking member for holding this hearing.
    I can think of no more important decision that we will make 
as Members of Congress than whether or not to send our Armed 
Forces into harm's way, and I appreciate the fact that we have 
got the subject matter experts before us to help us make a more 
informed decision. I hope that we will have more hearings on 
this subject. It certainly warrants it.
    And I also want to agree with the fundamental questions 
asked by the chairman, you know, what is our strategy? And the 
ranking member, how do we help out without making the problem 
worse? I think those are the questions of the day, and I 
realize very difficult to answer.
    General Keane, I couldn't help but agree with you when you 
said that we shouldn't put limitations on our military if we 
are asking them to go in and do a very difficult job, if we 
want to acknowledge that there are no ground forces today in 
Syria that we can rely on. It is very questionable whether 
there are ground forces in Iraq that we can rely on that are 
not our own.
    And so if we are going to go in, and if we want to win, 
then we need to do whatever is necessary to do that.
    But I also think about the service members at Fort Bliss, 
whom I have the honor of representing, the veterans who have 
come back from wars throughout our history, including the most 
recent engagements in the Middle East. And while I agree with 
Ms. Duckworth that they want to know that we have their back 
and that we support them, I think what they want to know even 
more than that is that we have a plan and we have a strategy 
before we send them into harm's way.
    So I would like to ask you to do this, I don't know that in 
the 3 minutes remaining we can define what that strategy should 
look like. If you can, go for it.
    But how about this: Can you define what winning looks like? 
Can you define the conditions that would be necessary in Iraq 
and Syria or vis-a-vis ISIS for us to conclude military 
operations?
    And I will start with General Keane and then we can move to 
your left across the panel.
    General Keane. Well, ISIL is a little different 
organization than Al Qaeda because owning territory, it 
provides them a legitimacy and it is part of their belief 
system. So you fundamentally, to defeat them, have to begin by 
taking their territory away from them.
    They will largely stay and fight. We found that when we 
went into Afghanistan, where Al Qaeda was initially at post-9/
11, when they were met with some sizeable force--not 
necessarily a decisive force--they ran into the mountains and 
hills of Pakistan. They fled to fight another day. This 
organization will not do that.
    So what we must do is take the territory away from them 
which provides them their legitimacy. And by returning Iraq to 
its sovereignty, to its borders, that is a good thing and that 
is what winning looks like.
    The same thing in taking the territory away from them in 
Syria.
    That would not stop ISIS from conducting terrorist 
activities in those same countries from outside the country or 
from a small safe haven in it, or using terrorist activities in 
cyber terrorism, which they are also doing, in other satellite 
countries. But where core ISIS is, we must take the territory 
away that they own, and that begins to look like we are 
winning.
    That doesn't mean ISIS goes away, because as the map I 
showed you, they have affiliates out there in satellites that 
they are trying to establish governance with and relationships 
with. But this is central to ISIS.
    And let's face it: ISIS has quite an appeal in the world 
today, and why is that? Because they have the appearances of 
winning. They are standing up to the United States and powerful 
nations; they are humiliating these nations by how--the 
barbarism and butchery that they do on the Internet. And they 
have had some impact with citizens in other countries killing 
their fellow citizens, as well.
    When you start to take this territory away from them, and 
you start to kill and capture them, and you find them in 
shackles, and they are moving into detention centers by the 
scores, this image, this attractiveness of ISIS begins to fade 
because now it is a losing organization. And it starts to 
impact on its ability to recruit people. Nobody wants to be a 
part of a losing, failing organization.
    Mr. O'Rourke. Yes.
    I am not going to have time to hear from the other 
witnesses, but I would love to get your responses for the 
record: What does winning look like? What conditions will have 
to prevail for us to withdraw military forces from that region?
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Keane, Mr. Chesney, Mr. Wittes, thanks so much for 
joining us today.
    General Keane, I wanted to ask you, from your perspective, 
and examining all the issues around an authorization of the use 
of military force, what would be some of the questions that you 
would suggest that we ask of our military leaders, with all the 
conditions that have to be considered here: the controversy of 
timeframes, the extent of which--how we identify the adversary, 
how we go after them, what should the scope and breadth of that 
be? Give me your perspective on some of the aspects that we 
should get the military leaders' perspective on?
    General Keane. Certainly. Well, first of all, I think you 
are bringing General Austin in here, CENTCOM commander. I have 
known him for years, worked with him, a very fine officer, and 
certainly with his depth of experience I think you are going to 
get all the answers you want, but here are a couple of 
suggestions.
    Number one, we are so dependent on this indigenous force in 
Iraq, I mean, it is appropriate to find out--get an assessment 
of the quality of that force and its reliability. After all, we 
did see this Iraqi army, despite all the years of investment in 
it, painfully watched it collapse in the face of ISIS, which 
wasn't that much of an overwhelming force. The Iraqi army 
outnumbered ISIS somewhere in the neighborhood of eight-to-one, 
but yet it collapsed in the face of it.
    So what has happened in the last year or so that changed 
that? This is crucial to our success. And what could we do, as 
the coalition, not just the United States, to help that force 
be better; not just in training, but advising it and also 
giving it military capability to assist in that force?
    What kind of timeframe are we really talking about here? Is 
this sometime this year, as the media seems to be reporting, 
and also CENTCOM gave us an awful lot of information on that 
themselves, which I was a little surprised with, in terms of 
the qualitative approach and quantitative approach to the force 
itself. But that is an important issue.
    In dealing with Syria itself; let me come back to Iraq.
    One of the key dimensions in Iraq is clearly the Sunni 
tribes, and where are we in the growth and development of the 
Sunni tribes' willingness to participate under arms? And I know 
we are doing--we are conducting some assistance of them.
    Most of them are reconcilable, and we know these leaders 
very well from our association with them. There are a few 
irreconcilables from the previous Saddam Hussein regime, and 
they are supporting ISIS; they always will. Where are we with 
that in--and the Abadi government's willingness to be 
politically inclusive with them?
    Another issue deals with Shia militia itself. The Shia 
militia is a very strong force. The cleric Sistani asked for 
popular support for it.
    It goes well close to 100,000-plus, maybe close to 200,000 
volunteers who have thickened the Iraqi Security Forces. The 
best of the Shia militia forces are those that are backed by 
Iranians and have had a role in training them. What does this 
mean to us as we go forward in terms of the Shia militia's role 
in helping to reclaim territory?
    Also, are we finally equipping the Peshmerga with what they 
need? They have been complaining to every one of you and to 
anybody that visits them that they still haven't got the 
equipment they need.
    In Syria the real issue, as I have tried to point out, is 
the ground force itself. What will be the ground force that 
will eventually defeat ISIS in Syria? And I think if the answer 
is the Free Syrian Army, I think you need to push pretty hard 
on that, because it doesn't seem to be viable to me.
    I believe it is an Arab coalition that will have to be put 
together. They will probably ask us to lead it, and I think it 
is likely we probably should. I don't think we could do that 
unless we shut down Assad's air power.
    And I also believe that the administration doesn't want to 
do any of that. And even though Turkey, the UAE [United Arab 
Emirates], Saudi Arabia, and Jordan want the administration to 
do that, in other words, shut Assad's air power down so that 
finally we can start to do something against ISIS and you are 
not bombing the Free Syrian Army force every day. That is what 
he is doing.
    I think the elephant in the room there, quite frankly, is 
the nuclear deal with Iran, that the administration does not 
want to push on Assad because of the relationship with Iran. 
Iran propped that regime up; it rescued that regime from 
failure.
    And if we pushed on it I think it would jeopardize the 
pending potential deal on nuclear weapons, which I think the 
administration believes is its number one priority. Probably 
wouldn't say that, but I believe it is.
    I don't think General Austin will get much involved in that 
because that is a policy question above his head, but certainly 
these other things he would be prepared to answer, and I think 
you will get some very straight answers from him.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. Certainly appreciate it.
    And, you know, one of the duties that we have is to make 
decisions on these very difficult items, and it weighs heavily 
certainly on my mind and those of the people that I represent.
    Certainly I have to agree with the witnesses when they talk 
about three reasons that we are even considering this: 
obviously the moral reason, which I agree with; the age and 
scope of the old AUMF; and certainly, it is our job, which 
actually brings me to the point of the question.
    King Abdullah was here 2, 3 weeks ago, and it was the day 
that the video was released of his pilot being burned to death 
in a cage; that barbaric video. He stated, ``This is our war,'' 
indicating that he and his partners in the Gulf. It can't be 
America against them. ``We need your help, but it is our war.''
    And the other item which really resonates with me: I have 
been fighting this for 1,400 years, and brings me back to what 
Mr. Smith had said is beating down the mole. So we heard the 
question earlier talking about what is a win, and certainly the 
nuts and bolts of a win can be debated. But I think those who 
we are targeting, it is not a team sport that they win and 
lose; it is a way of life.
    And I think we have heard ample evidence of that, that they 
are willing to give everything up because they believe in this 
at a core level. Whether we think it is insane or not is 
immaterial.
    But you had talked rather, General, directly against a 
timeframe. Couldn't the same argument be spoken about the 
timeframe is, each year we authorize a budget, and in many ways 
that is a timeframe.
    I think it is the responsibility of the next President and 
next Congress to review what we are doing. And I don't think 
anybody in this room or in America doubts the resolve of the 
American people to back up our troops.
    So I want to get your opinion on where we are going with 
the timeframe again, given that at any point they could point 
to the fact that we wouldn't fund this or the budget and 
appropriations. How is that different than the resolve of a 2- 
or a 3-year AUMF?
    General Keane. Well, in my mind, I mean, the budget is an 
annual process, and that is quite different even though there 
are plenty of authorities in a budget, obviously, to fund 
military operations. But that is quite different from the AUMF, 
where you are authorizing military force for a specific purpose 
and then tying a timeframe to that authorization.
    I am suggesting that why do that when you have plenty of 
authority yourselves in your normal oversight of the Department 
of Defense and the executive branch to make certain that you 
understand what is taking place and the progress that is taking 
place and you have the power of the purse in any event, which 
is your ultimate authority? I think it sends a message of a 
lack of resolve.
    You know as well as I do that our friends in the region, 
and if you are speaking to them you know what I am about to 
say, that they have been questioning America's resolve in this 
region for some time now.
    Mr. Norcross. Exactly why we are here today.
    General Keane. And why add to that? Why add to that doubt 
about our resolve? After all, we are going to be largely 
depending on them dealing with this problem for years to come.
    And secondly, I think it sends a message to the enemy that, 
well, America is not that serious. We are going to take a look 
at this in 3 years and see if we should be doing this. When 
anybody who is looking at this, I mean the reason why we have 
an authorization for military force is because I think it is an 
unstated, it is an unstated understanding that this--it will be 
protracted, that this is going to go on for years.
    Mr. Norcross [continuing]. Like a budgetary issue that we 
would be discussing each year. Couldn't they look at that from 
the very same perspective as you are suggesting?
    General Keane. The normal oversight that takes place and 
the tough questions that are asked of, you know, the Department 
of Defense leadership, both civilian and military, that kind of 
rigorous analysis is never going to get communicated in the 
same way that the authorization for military force and the time 
constraint that is associated with it would be. I mean, that is 
a headline, and rigorous analysis in terms of the progress we 
are making is not. I think those are two very different things 
and quite separate, frankly.
    Mr. Norcross. Thank you.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here.
    General Keane, I don't ever want to let a general stand 
before this committee without expressing gratitude for your 
service and for just your commitment to protect human freedom, 
especially my little babies. I appreciate it.
    I was especially moved by your comments related to the 
resolve that I think the enemy tries to consider as much as 
anything else. And the administration's AUMF mentions using 
American forces, ``in support of partners on the ground and 
local forces to combat ISIS.''
    One of my concerns is that there is an ancillary effect 
that it might end up where we are even indirectly funding Shia 
militia proxies of Iran, and it might actually increase their 
standing in the world to the extent that it might actually 
increase their opportunity to one day gain a nuclear weapons 
capability. And do you think that the AUMF, as it stands now, 
opens us up to the potential of the ancillary effect of 
fighting alongside Iran?
    General Keane. Well, clearly we cannot disguise the fact 
that there are Shia militia that is largely protecting Baghdad 
and also the shrines, the Shia shrines, north and south, that 
are present there, and some of them have been trained by the 
Iranians. And they also have been effective, and they will 
continue to be effective. So that reality is on the ground and 
it is not going to change.
    That does not mean that when Iraq gets its total territory 
back and its sovereignty is returned to its borders that Iran 
is going to have a grip on Iraq that is totally dysfunctional. 
The Iraqis don't want that. Certainly Abadi wants no part of 
that.
    He also did not turn down, his predecessor didn't turn 
down, when he asked for help, airplanes started arriving day 
one. And we put off help for a few months, if you will recall 
that. And he was not about to turn that help down from a 
practical matter.
    When you look at it geopolitically, Iraq wants to stand on 
its own two feet. Iran will always have an influence there, 
given its neighbor and also given the fact that they have 
helped them here.
    But I do think that the coalition that is coming together 
to help Iraq and to return its sovereignty, we will have a 
long-term strategic relationship with Iraq on a path that we 
had intended to do back in 2009, when we had driven this Al 
Qaeda in Iraq into their rat holes. So I think those 
opportunities are still there.
    I don't think that the Shia militia backed by the Iranians 
forecloses on a strategic relationship with Iraq over the long 
term that makes sense to us in terms of a country that has 
wealth, an educated class of people, and is a force for 
stability in the region. Those opportunities are still there.
    Mr. Franks. Well, thank you. It occurs to me that 
emphasizing our relationship to the Kurds and helping them as 
much as possible might be a safer alternative there, but one of 
the great concerns that I think all of us have is that we--you 
know, one of the gentlemen mentioned here, we have been 
fighting this radical Islamist ideology for 1,400 years. And so 
without defining our enemy or essentially by that ideology, it 
is difficult for me to know how that we engage them 
strategically.
    I mean, we have fought terrorism tactically very 
successfully. We have had unprecedented success. But I think 
that we have failed to engage them strategically.
    And so I guess I would ask what would your thoughts be to 
some language in an AUMF that might sort of--I know it is deep 
water, but to holistically identify this ideology so that we 
are able to confront it where it emerges instead of just kind 
of coming up with some fuzzy associational definitions?
    General Keane. You know, I sympathize, you know, with your 
desire to do that because you are frustrated, like I am, that 
we don't have a comprehensive strategy to deal with this and it 
has gone on far too long. And when you watch the growth of--the 
continued growth of Al Qaeda, and now watching the growth of 
ISIS, it is particularly difficult to recognize that we still 
haven't come to grips with it.
    But this is not the document to put those means in there, 
even though you are frustrated and you are tempted to want to 
do that. It is just inappropriate to do it.
    I think it would set a terrible precedent for authorizing 
military force. I think you would get significant pushback from 
the--and justifiably so--from the President and his team.
    I think bringing the national leadership in here and 
putting them in front of you and asking them to explain what is 
the strategy to deal with radical Islam, and evaluating that 
and assessing that, and pushing on them, I think that is much 
more appropriate to deal with than to try to put some 
expression of it in this document--in the authorization for 
military force. I think it is inappropriate.
    Mr. Franks. Thank you, sir.
    The Chairman. Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman, and really thank you 
very much for having this hearing. As many have mentioned, this 
is a very important issue for all of us here and definitely for 
our constituents back at home.
    I looked at the request from the President in the form of 
this joint resolution, and under section (c) limitations it 
says the authority of the grant does not authorize the use of 
the United States Armed Forces in, ``enduring offensive ground 
combat operations.''
    So my question to you on the panel is, what does that mean? 
Does it actually refer to the length of time during which the 
operations will be ongoing for 3 years? What is the scope of 
the operation, from your perspective? And is it, in fact, some 
undefined relationship between time and scope?
    Mr. Chesney. It is not well defined. It is a severe problem 
with the language in section 2(c). And it is not just one 
problem of lack of clarity; it is multiple problems.
    ``Enduring'' has no particular legal meaning. That, in some 
people's minds, could reasonably refer to years; in other 
people's minds, the Secretary of State the other day, on 
Tuesday, referred to a couple of weeks or a few weeks. You 
know, reasonable people can disagree about what ``enduring'' 
means.
    ``Offensive'' is difficult to describe. So, for example, 
the upcoming operation to liberate the city of Mosul, is that 
an offensive operation? You can see where someone would view it 
that way.
    But on the other hand, it is not like ISIL was in that city 
all along. ISIL came in and took it. Is it defensive to drive 
them back out?
    ``Ground combat.'' If you have forward air controllers who 
are on the ground and they are directing air strikes or 
assisting with the direction of air strikes, is that a ground 
combat operation?
    There are ways to try to handle this by offering 
statements, like the President's transmittal letter, referring 
to, well, here is a list or an enumeration of particular types 
of activities that we mean to be okay. But at the end of the 
day, none of that gets enacted in the AUMF. The AUMF's text 
will say, ``No enduring offensive ground combat operations,'' 
and that language should be dropped.
    Mr. Takai. Okay. I have another question, and maybe you can 
help me with this.
    So there have been many mentions, I mean, if you take a 
look at the language it also repeals the 2002 AUMF, but my 
reservations are in regards to the still-in-effect 2001 AUMF. 
So my question is, and in fact, many people have already said 
it, the conflict that we are in right now, what is happening 
right now is based on the 2001 and 2002 AUMFs, so what is your 
perspective with the fact that the 2001 AUMF will still be in 
effect based on this draft? What does that mean?
    I mean, we are currently operating with those two AUMFs. 
Is, in fact, this particular draft necessary to continue 
operation?
    Mr. Wittes. So what it means very simply is that the 
additional authorization here is purely additive, not there is 
no, you know, the interaction between this and the underlying 
document is that this merely adds authority. It does not tailor 
authority. It doesn't really, despite the optics, at least as a 
legal matter it doesn't limit authority.
    And I think if I have one message for this committee it is, 
think about the new authorization in interaction with the prior 
authorization, because otherwise you end up talking about 
restrictions that aren't real restrictions, and you also end up 
imposing, you end up doing all kinds of things that you don't 
know you are doing or you don't mean to be doing because there 
are these other documents out there.
    And so think, think about it as though you had to today 
answer the question, what force do we want to be authorizing 
overseas in general against the groups that we might want to 
use force against. And some of that involves rewriting the old 
AUMF, and some of it involves the discrete expansion of it into 
the ISIL and associated forces department.
    But think about that question holistically. Don't try to 
think about it as, you know, hey, what can we add that is on 
ISIL in particular, because then you end up with restrictions 
that don't seem to mean what they say.
    Mr. Takai. Okay. And then one more question, and I guess we 
will have to wait for your response in writing, but I am just 
questioning why you think there was no geographical limitations 
put in this current draft. So if you can think about that and 
maybe send us the information, I----
    Mr. Wittes. I can give you a 2-second answer to that: 
because the administration wanted to maintain flexibility.
    Mr. Takai. All right. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    And the authorization that the President submitted to 
Congress lists one terrorist group in two countries. I have got 
a Defense Intelligence Agency report right here that is 
unclassified that says that we are chasing 41 terrorist groups 
in 24 countries. And I think that one of my concerns, or I know 
one of my concerns, and I think other people's concerns, with 
the way the authorization is drafted is, what if they simply 
change their name or what if they simply cross borders into 
another country?
    The other thing that I would point out is that the 
President had the authority several months ago, when we first 
saw the ISIL convoys, to take action at that stage and he chose 
not to, and I think that one of the reasons that we are in the 
situation we are today is because they were indecisive at that 
point, and quite honestly, it is almost like they let them kill 
enough people that now all of a sudden they have to do 
something about it.
    I want to go back to 2011 for a second. The decision was 
made to take Gaddafi out, yet the United States did not secure 
the weapons in Libya. I would like to know what do you think 
happened to the weapons in Libya when Gaddafi was removed, 
since we did not go into the country and secure them?
    The other thing I would suggest is that the U.S., through 
the State Department, for years has been undermining Assad and 
the central government of Syria. That, to me, seems to have 
been one of the things that has allowed these terrorist groups 
to grow.
    And then finally, I would like--and, General, this may be 
more of a question for you because of your military experience, 
what does the hold force look like? I have no idea that we can 
move these terrorists out of any territory that we choose to 
move them out of, but what does the hold force look like to 
hold that territory? Because if we can't hold it this time, we 
are simply going to be right back in there again.
    General Keane. Okay. Well, that is a mouthful. Let me try 
to get to you with some of it and hopefully leave some time for 
others. But, you know, in terms of the enemy itself, I think 
saying ``ISIS'' and also putting the word ``associates'' in 
there clearly sends a message that this is--ISIS, as I tried to 
show you on ISW's map, clearly has intent and is moving outside 
of ISIS, the Islamic State of Iraq and al-Sham, which is 
essentially the Levant. And you would not want to restrict the 
President geographically or in terms of what this enemy calls 
itself and who it is affiliated with.
    It doesn't mean that on that map that is in front of you 
that we would obviously be dealing with ISIS in all of those 
countries. I think we would have to give the President a lot 
more credit than that. But the fact of the matter is, if we 
wanted to conduct a counterterrorism operation against ISIS in 
Libya because al-Sisi asked us to do that, and we want to do it 
together, and we have got good reason to do it, that may be 
something the President would want to consider and we would 
want him to have the flexibility to do that.
    Mr. Scott. Do you agree that he has the authorization to do 
that today?
    General Keane. He could do it today.
    Mr. Scott. Absolutely. I agree with you----
    General Keane. I agree with that, but I also think that 
this document, because this is a protracted war and because of 
who this enemy is and the scale of it, I do believe the AUMF is 
appropriate.
    And weapons in Libya, look at three times we have made the 
same mistake. We went into Afghanistan, Iraq, and Libya, 
deposed a government, and never had very good plans----
    Mr. Scott. Yes, sir.
    General Keane [continuing]. To deal with the aftermath of 
that in terms of establishing security and stability. We have 
made the same mistake three times.
    In Libya the only thing that--and we had a moderate 
government that took over, much to our surprise. The only thing 
that moderate government asked of us is, ``Help me put together 
an effective security force so I can tamp down the militant 
organizations that are in my country.''
    Our answer to that was, ``No.'' And look where we are now. 
Our embassy is gone, they have killed our Ambassador, they 
burned our consulate down, and we have got chaos in that 
country.
    The weapons in Libya we did take control, I mean, some--I 
can't get into the classified aspect of it, but the Central 
Intelligence Agency did have an operation that they conducted 
in Libya to take control of a lot of sensitive weapons. I am 
not talking about AK-47s and RPGs [rocket-propelled grenades]; 
talking about WMD [weapons of mass destruction] and other 
weapons.
    Mr. Scott. I am out of time. I would suggest that a better 
word for what happened to our Ambassador in Libya was an 
assassination. The idea that that just kind of happened is 
absolutely ridiculous, and the facts show that that was an 
absolute assassination of a United States Ambassador.
    General Keane. Quickly, on the hold force: If all we do is 
clear out ISIS from Mosul, Tikrit, and Fallujah, and don't have 
a force that stays there to protect it and that is effective, 
this is the number one lesson we learned prior to putting in 
play the counterinsurgency operations in Baghdad and the 
environs around it. We would routinely clear forces out and 
then they would come back in because we did not hold control of 
the territory and maintain influence and control over the 
people.
    If we don't do that, they for certain are going to come 
back. This is a determined, resolute force. They are not going 
to go someplace else. They are going to come back.
    And we have to have that capability there, and that is--I 
think that is something you can explore with General Austin. I 
am sure he has got a plan for it.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    There are so many different points and angles, and 
difficult to address them quickly in less than 5 minutes, but I 
want to touch on the point that many have made about the need 
to address and come up with an effective strategy to defeat 
this threat not only militarily but simultaneously 
ideologically; that, as you said, General Keane, as we saw with 
Al Qaeda, because this was never addressed up front we find 
ourselves in the situation that we are in today.
    So my question is about how we deal with this issue within 
the construct. Each of you believe that there should be an AUMF 
passed to deal with this, and how that issue of ideology is 
addressed within this document.
    And secondly, as we talk about what is coming in Mosul but 
also generally, as we look at the military strategy to defeat 
this enemy, why it is so important to address the ideology is, 
for example, if we had a primarily U.S.-led ground force it 
would play directly into the ideology and major recruiting 
propaganda that groups like ISIS are using, that this is a war 
between the West and Muslims, as opposed to supporting what 
President al-Sisi is calling for, this Arab regional ground 
force.
    So specifically with the AUMF, I am wondering if you can 
address that question with regards to the fact that this must 
have a military and ideology component to the strategy.
    We can start with General Keane.
    General Keane. Well, you know I have very strong feelings 
about the fact that we have to recognize it for what it is. 
What we have failed to do is name the movement properly, then 
we don't define it, and we certainly have done a terrible job 
in explaining its ideology.
    And by putting a magnifying glass on that ideology and then 
having the moderate and the traditionalist Muslims explain why 
the Islam that they are following is powerful and why 95, 97 
percent of the Muslims in the world are following it, and why 
that should shape and define people's lives and why this other 
following is absolutely antithetical to it, that has to take 
place. And I would suggest that we are not the best to do that. 
This is about Muslims doing this, educating not only Muslims 
about it, but educating the rest of us about this.
    And I do think the United States can play a leadership role 
here in terms of encouraging this and getting the majority of 
the Muslims, and there are many of them that speak out, but 
getting their clerical leaders to really speak out in a 
theological way to deal with this issue.
    Certainly the military component here is what is right in 
front of us. We have a marauding enemy that is killing people 
every single day; most of it is not being exposed on the 
Internet.
    And this kind of brutality and barbarism has to be stopped. 
The only way you can stop that killing is you have to kill the 
people who are doing it and--or you have to capture them.
    All that said, we don't want to fight another movement like 
this 5 years from now or 8 years from now, and that is what 
brings in your comment about the ideology and countering that 
entire narrative. We need a longer-term issue to get at that.
    And yes, there are conditions in this region that helped to 
grow some of this movement. Political reform, social justice, 
and some of the economic repression in the region are 
conditions that contribute to it. They are not necessarily 
central to it, but they are there contributing it and we have 
to have those kind of sensible dialogues with our friends in 
the region who, in fact, contribute to some of these problems.
    Ms. Gabbard. Right. Sorry, I have got 1 minute.
    I wanted to just ask Mr. Chesney both to address this but 
also the first point that you made about this AUMF lacking a 
purpose, a directly stated purpose, and how you could see that 
an effective winning strategy can be achieved and outlined, 
really, in this.
    Mr. Chesney. So, taking these in reverse order, it 
certainly makes sense to talk about the strategy on the ground 
most likely being best effectuated by an Arab regional ground 
force, properly supported, and led and resourced and punched up 
by U.S. forces.
    Trying to tweak the AUMF's language in a way that allows 
for that yet doesn't somehow allow for a larger ground force 
where it is just the U.S. I think is not going to be easily 
done and shouldn't be attempted. That should be left to the 
Commander in Chief to figure out how to do this without trying 
to tie his hands legislatively.
    As to what you say about the purpose, very difficult to 
make a granular statement there, but there needs to be at least 
some guidance at a high level of generality.
    Ms. Gabbard. Thank you.
    The Chairman. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    During my time I would like to emphasize the very broad 
nature and scope of the war resolution that we are being asked 
to support. In particular, and this has been mentioned by some 
of the other Congressmen and by the witnesses, there are no 
geographic limitations. And as I understand it from the 
information I have, you can make the case that the Islamic 
State is active of course in Iraq and Syria, but also Jordan, 
Libya, Egypt, Algeria, Tunisia, Yemen, Saudi Arabia, and other 
nations.
    Under the war resolution that we are being asked to 
support, in section 2 it states, ``The President is authorized 
to use the armed forces of the United States as the President 
determines to be necessary and appropriate against ISIL or 
associated persons or forces as defined in section 5.''
    You go down to section 5: The term ``associated persons or 
forces'' means individuals and organizations fighting for, on 
behalf of, or alongside ISIL, which is, as we know, covering 
virtually every continent on Earth, with the possible exception 
of Antarctica, and many of the countries that are on each of 
those continents, because the Islamic State has done a fairly 
good job of recruiting its people from all corners of the 
globe.
    In that vein, then, I want to emphasize a couple of 
questions but ask you to ask one of them.
    First, how is America going to pay for it? This is an 
extraordinary cost, and we have had witnesses where you are 
sitting now who have already said that the greatest national 
security threat that the United States of America faces is our 
deficit and accumulated debt that ultimately has the potential 
of exposing us to a devastating insolvency and bankruptcy, 
which would eliminate our ability to have a national defense. 
Those words, in effect, came from Admiral Mike Mullen when he 
was Chairman of the Joint Chiefs of Staff.
    Second, how does diversion of defense money to this effort 
to fight the Islamic State undermine our defense capabilities 
and the rest of the needs for America's national security?
    The question I want you to answer, though, is, if Congress 
adopts this war resolution or a similar one, how does that 
action affect the willingness of the rest of the world, and 
Europe in particular--Germany, France, United Kingdom, Italy, 
and the like--to shoulder more of the burden, to spend their 
treasury, to risk the lives of their young men and women now 
that they know that the United States of America is once again 
willing to pay the price for the world's security? So if we 
pass this war resolution, how does that impact the willingness 
of other nations that are at risk to spend their money and risk 
their young men and women?
    Mr. Wittes. I mean, I think I am overwhelmingly unqualified 
to address any of those questions, frankly. I am not an expert 
on fiscal matters. I am actually not an expert on European-U.S. 
relations. And, you know, I--you guys asked me to address the 
merits of the President's proposal, and I have tried to give 
some technical guidance on that.
    Mr. Brooks. All right. Thanks. I appreciate your 
succinctness and candor in that regard, and maybe the other two 
witnesses----
    General Keane. Okay.
    Mr. Brooks [continuing]. Are not prepared either----
    General Keane. I am here.
    Mr. Brooks [continuing]. But if we are going to shoulder 
the whole burden, which is what this resolution seems to 
suggest we are willing to do, how does that affect the 
willingness of other nations to sacrifice as we would be 
sacrificing?
    General Keane.
    General Keane. Well, I knew we were going to have this 
discussion, and I think it is very difficult to put a price tag 
on security of the American people. We know this is a threat to 
our interests and national security objectives in the region, 
and we know it portends to be a long-term threat to the 
American people.
    This ideology is clearly having some impact. I am not 
suggesting for a minute that terrorism is going to break out 
across the United States. I don't wring my hands about things 
like that.
    But I do take seriously when the director of the FBI said 
he has got homegrown terrorism investigations going on in every 
State in the United States. I am not suggesting that there is 
going to be a terrorist attack in every State, that every one 
of those people who he is investigating have the means to do it 
or the will to do it. But just the fact that it is ongoing 
itself I think is alarming in and of itself that how many 
people have been attracted to this ideology.
    So secondly, the security of the American people are 
involved here, and should we be prudent about the expenditure 
of funds to do this? Of course we would be. But one of the 
things we have to do, to be frank about it, Mr. Congressman, is 
we have to deal with sequestration.
    While we are talking about the authorization of military 
force, the Budget Control Act is decapitating the capabilities 
of the United States military. And you know that as well as I 
do when these service chiefs come in front of you and lay out, 
you know, what their challenges are as they look down the road 
at the Budget Control Act or sequestration.
    We are taking the Army down to something that is pre-World 
War II, and the Navy and the Air Force down to something that 
is 1950s. That doesn't make any sense to anybody, but that is 
the path that we are on. So I think the Congress can play a 
significant role here in dealing with sequestration.
    The Europeans? Listen, the Europeans I don't think they 
have ever recovered from the fact we bailed them out of World--
from post-World War II. Year after year after year they have 
pushed the burden of their security more on us, and this has 
been generational.
    Many of these European nations are feckless in the face of 
real security challenges. You can see it in their budget and 
you can see it in their will. And look at how they are dealing 
with Putin and the redesign of Europe that he is imposing on 
them and the feckless response that we are getting from them.
    It is predictable that we will, by comparison to our 
European friends, bear a greater burden. I think it goes with 
the leadership role the United States plays in the world, that 
the United States believes in stability and security, and 
helping to raise the prosperity level among people in the 
world, and dealing with the thugs and killers who are out there 
who would impose our will, and we--it is not that we have to be 
the answer to all of it, but where our national interests are 
involved, that we should be involved.
    And we shouldn't judge that based on--look around and say, 
``Are our European friends going to be with us or not?'' We 
should do everything to get them involved with us, but if they 
choose to be halfhearted about it, if our interests are at 
stake and the security of the American people is at stake then 
I think we have got to be there. And I don't think you put a 
price tag on it.
    Mr. Brooks. Thank you, Mr. Chairman.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And, gentlemen, thank you very much for joining us here 
this morning.
    General Keane, I want to specifically thank you, because I 
was an infantry officer in the surge, I am greatly appreciative 
of what you did to help turn that war around.
    I respectfully disagree with an earlier statement one of my 
colleagues made that the most important thing for the troops on 
the ground is to know that all of America is behind them. I 
knew that all of America wasn't supportive of what I was doing 
in Iraq, but you, with the help of General Petraeus and others, 
gave us some hope, some faith that we had a plan, that our 
effort, our sacrifice, our loss would not be in vain.
    And so I, among many others, come back to this fundamental 
issue that we don't seem to have a strategy here.
    I just returned from a CODEL [congressional delegation] to 
Iraq and Afghanistan and received countless briefs on a three-
phased plan. And we all know that phase four was what was 
missing back in 2003, and it seems like it is missing again 
here.
    I have not seen a good plan to deal with the Sunni tribes, 
to deal with the Shiite militias, and that is just in Iraq. I 
agree with your assessment that we don't seem to have much of 
any plan at all for Syria.
    So my question is, how do we, how do you try to influence 
this debate to actually get a strategy? Somehow you were able 
to take a failing war in Iraq and help turn it around by 
bringing a workable strategy into the discussion and then 
eventually getting it enacted. If you could comment on that, 
maybe we could see a path forward.
    General Keane. Well, thank you, and appreciate your 
service, as well. Semper Fi.
    Mr. Moulton. Semper Fi.
    General Keane. This is very difficult. To change the 
failing strategy in Iraq, to be frank about it, the leaders, 
the military leaders who were prosecuting that strategy did not 
want to change. The leaders of the Department of Defense also, 
civilian leadership, the senior military leaders in Washington 
did not want to change.
    But I think what happened there is it appeared to me that 
the evidence was compelling that the strategy was not working, 
and I think we had one person that understood that that was 
willing to do something about it, and that was the President of 
the United States. I mean, he just instinctively saw it and 
said, ``This is a real problem.''
    I don't think he knew necessarily what should be done about 
it, but he knew instinctively we had to do something about it 
and he threw politics aside, certainly, because his own party 
was almost as much against him as the opposition party was, and 
certainly most of his generals were. But he reached for 
something that turned out to be the right answer.
    So this is very hard to do.
    We have a different problem here, I think, is we have a 
strategy that we put together and it is in the beginning of its 
execution, and so it is very difficult to get someone to change 
it based on the fact that when you look down that at long term 
it is not going to work.
    Mr. Moulton. Mr. Chesney, do you have anything to add to 
this?
    Mr. Chesney. No. I will simply say that it will be 
difficult to make any progress on this through the lens of the 
AUMF itself, but the right way to think about the AUMF's 
relationship to this question is to make sure that the 
Commander in Chief has the authority that he may judge 
necessary and not to tie his hands. Even if he is asking for 
you to tie his hands, his hands shouldn't be tied.
    Mr. Moulton. I agree with that statement, and I think that 
what was most frustrating to me about returning to Iraq was 
seeing so much of the effort that we had carried out during the 
surge really gone to waste. And the operative question in my 
mind is not, how do we have a military strategy to defeat ISIS? 
I think we do.
    The question is, how do we prevent what happened from 2010 
to 2013, where all that effort went to waste?
    Thank you, Mr. Chairman. I yield my time.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I appreciate the panelists and want to begin just by 
associating myself with the remarks that General Keane made 
earlier today with regard to calling things for what they are: 
Islamic extremists. And I have been saying this for some time.
    First of all, it is the reality. The second point is is 
that it really then lays bare what our enemy is trying to do. 
This extremist group, this Islamic extremist group, is trying 
to deceive the Muslim world that somehow they are advancing 
their cause. This is how they are trying to recruit and 
fundraise.
    So when we label it as it is we lessen their ability, 
especially now, when you see Muslim nations and people standing 
up to this Islamic extremism in Iraq, Kurds, and then Jordan 
and Egypt, when we are supporting them we lessen our enemies' 
ability to recruit and fundraise, and that is the key point 
here. We can militarily engage at this moment, and, you know, 
for every one that we kill we end up, you know, dealing with 
issues of multipliers in terms of recruiting and fundraising; 
why it is so important to have clarity.
    So I just want to associate myself with those remarks.
    My question for the panel has to do with, and by the way, I 
want to thank General Keane. He has always been a source of 
inspiration and great mentorship to many of those in uniform.
    My question is on Syria. Last fall I was not able to vote 
for arming the so-called Syrian--moderate Syrian army. I gave 
it a fair hearing. I looked at all briefings and looked at the 
briefing papers, and at the end of the day I believe that that 
force was militarily incompetent, politically untrustworthy, 
and it was going to fail.
    So that put me in a--I mean, ethically, morally I felt in a 
tough spot because I knew that this is an enemy that can't be 
deterred; they have to be defeated. Question is, how? And we 
were proposing a strategy that was, in my view, going to fail. 
And now we are seeing the problems of it.
    You know, how do we get anything done of significance in 
Syria without a political foundation? In Iraq you could argue 
about the efficacy of that foundation, but you have Iraq, the 
Kurds, you have a foundation from which to support taking 
certain action.
    In Syria we have really no foundation, so what is the way 
forward there, from anyone in the panel? Very interested to 
hear.
    General Keane. Well, I will take a stab at it. I mean, 
Syria is really a tough problem, and there are very good 
arguments on both sides, on many sides of this issue because it 
is so challenging. I just want to provide you a couple of data 
points.
    Remember back when the--this was part of the Arab Spring, 
the people stood up against Assad and, because he was so 
violently--he used violence to push that--the people back, many 
of his officers and his troops that--underneath him joined the 
opposition forces because he was killing his own people in the 
streets, unlike what took place in Egypt. As a result of that, 
that opposition force gained momentum and they were--people in 
this town were predicting it was just a matter of time before 
Assad falls. Remember that?
    And what happened is the Iranians came in, propped up the 
regime, so did the Russians, and then the Free Syrian Army 
asked for our help. And this goes back in the 2011 timeframe.
    In 2012 ISIS moves into Syria, and would things have been 
different if we had helped the Free Syrian Army then to 
maintain that momentum against the regime? I think so; I don't 
know for sure. But I think we made a huge policy mistake.
    And then in 2012 Clinton, Petraeus, Panetta, and Dempsey 
advocate the same thing as a matter of policy--not just the 
Free Syrian Army asking; now they are advocating it, and we say 
no again.
    In 2012 the radical Islamists are in Syria, and they are 
growing in size and scale and adding to the complications of 
this problem. What they do--they didn't start the Arab Spring 
but they have always seen it as opportunity, when you have 
political and social upheaval like this and chaos, they want to 
take advantage of that because they want to have a seat at the 
table at the end of it.
    That is what we are facing. So it adds to the complications 
that we have in Syria.
    When I put my head on that and try to work out an answer to 
what needs to be done, I do believe we need to get a political 
solution in Syria. But how do you get it when Assad has the 
momentum? You are not going to get it, and the Iranians and the 
Russians are not going to permit it.
    The only thing you can do is change that momentum, and that 
begins with military, to change the momentum he has. Shut down 
his air power by the use of no-fly zones and buffer zones. 
Would he contest that? Unlikely, because we would then destroy 
his air power.
    That begins to change the political situation, because now 
he is no longer dominating. And it puts pressure on people 
around him to look for a solution that is beyond Assad.
    That, I think, is the general thought process, that you 
have to get past Assad and you have to see a political solution 
there--not necessarily the removal of this entire regime, but 
the removal of Assad, and to some kind of accommodation with 
its own people--not the radicals, but with its own people that 
are fighting them. I don't think you can get there unless you 
took some kind of military action to balance the military 
situation.
    Then you can put together--then I think our friends in the 
region--I can't say and guarantee you this would happen, but 
they are all urging us to do what I just said. Then I think you 
get the makings of an Arab-Turkish coalition, which the United 
States would participate in, to drive and defeat ISIS in Syria.
    Those are kind of the steps, I think, that should be 
undertaken. But we have no plan to do any of that.
    Mr. Gibson. Thank you, General. My time is expired.
    Thank you.
    The Chairman. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, gentlemen, for joining us.
    Mr. Chesney and Mr. Wittes--I am sorry, can you say it one 
more time?
    Wittes. Okay. I was close.
    Mr. Chesney and Mr. Wittes, you mentioned during your 
opening comments the silence that the AUMF has on detention 
protocols.
    So, Mr. Wittes, if you could start, how would the 
alternative AUMF draft that you created treat detention 
protocols moving forward, in addition to the current detainees 
held under the 2001 AUMF?
    Mr. Wittes. Right. So this is an excellent question.
    Under the draft that we wrote you also have a notional 
silence about detention operations except that the language 
that we used to authorize force is the exact same language that 
the D.C. Circuit has used to describe the--in the current--
under the current AUMF the detention authority that it embeds. 
And so what we were trying to do there was not change the 
status quo as to detention except to add ISIL to the list of 
groups that you--ISIL and its associated forces--that you could 
apply the AUMF's detention authority to.
    I suppose we can be criticized along the same lines that 
Professor Chesney criticized the administration for sort of 
doing it elliptically rather than directly. As you know, as 
this committee knows, I have--I am all for being explicit about 
detention authorities, which, you know, has been a big theme of 
a lot of my work, and so if there were any inclination in the 
broader political community to make detention authority under 
this AUMF explicit, I think that would be a wonderful, 
wonderful thing and a very appropriate thing for the committee 
to do.
    My concern about the way the administration has worded this 
draft is that because it is not piggybacking off of the 
existing AUMF, the moment you detain somebody under it you 
would have a habeas litigation in which you would have to, and 
I think the administration would win, by the way, but you would 
have to litigate the question, does this detention authority, 
does detention authority exist under this AUMF. I think under 
our draft it is a lot, lot clearer what the answer to that 
question would be.
    Mr. Aguilar. Mr. Chesney.
    Mr. Chesney. I agree with everything Ben said.
    Mr. Aguilar. Thank you, gentlemen. And that doesn't take 
away anything from the broader strategic discussions that my 
colleagues--some incredible questions that have been asked, but 
I did want to delve into that piece because it was common 
between your testimonies, the written and the public, and I 
appreciate it.
    But going back to Congressman O'Rourke's comments, you two 
gentlemen didn't get to answer that piece, and I know he 
mentioned possibly putting it in writing, but if you could 
discuss what you feel winning looks like and what the 
conditions for us to achieve success would look like.
    Mr. Chesney. I will just offer a few preliminary thoughts, 
and these are similar to what General Keane said earlier. I 
think a big part of success involves ensuring that ISIL does 
not have a safe haven within which it can conduct first of all 
its own external operations, and that doesn't necessarily mean 
operations against the United States, though obviously that 
would be our first and foremost concern, but it could be 
operations in Europe, it could be operations against Jordan, it 
could be operations in Turkey, in any number of other places.
    Secondly, and slightly distinct from that, a safe 
territorial haven from within which they are able to attract 
and train foreign fighters who then go back and, even if not in 
any way subject to ISIL's direction and control, nonetheless 
going back and, as local homegrown terrorists, then carrying 
out attacks and destabilizing our allies in the area. These are 
things that we need to prevent ISIL from being able to do.
    Mr. Wittes. I don't really have much to add to that. I 
mean, I think the focus on safe havens and ungoverned 
territories is critical. These lead to very bad outcomes, and 
the last 20 years is just one example of that after another. 
And I think the instinct to create, to remove, to allow 
sovereign power from reasonable governments--you know, non-
exporting of violence governments--over what are now ungoverned 
territories is a pivotal objective both in this area and in 
other parts of the world where we are dealing with similar 
problems.
    Mr. Aguilar. Thank you, gentlemen.
    Thank you, Mr. Chairman. I appreciate your patience and 
yield back.
    The Chairman. I appreciate your patience in waiting to get 
in very good questions.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I too want to thank our witnesses for your testimony 
today. Your insights have been invaluable and I think this is a 
very important discussion. I think there is certainly no 
greater responsibility that any of us have here on this 
committee or in government when the decisions come up as to 
when or whether or not to send our men and women in uniform 
into harm's way and to get it right when we do.
    You all have made clear very important points about why an 
AUMF is important, again, sending the signals to our allies and 
our enemies as well as our troops that the law-making branch of 
government, were going to stand behind their efforts to defeat 
ISIL.
    I want to give each of you an opportunity, and this has 
been a pretty thorough discussion already, but give you an 
additional opportunity to talk about and point out the 
important points that should be left in an AUMF, which--in this 
as it is drafted, and which should be removed and within the 
time that we have, and if you can't get to everything, perhaps 
additional points in writing, if you would.
    Some of the first points that we need to see in the theater 
right now to signal that there has been a turn. Clearly nature 
hates a vacuum, and there is a vacuum right now there that ISIL 
is filling, and there is also the saying that, you know, if 
they are strong they have to be with you, and I think that is 
why you are seeing this growing support of ISIL, because they 
are strong and getting stronger right now.
    What would indicate an initial tactical success within the 
theater of conflict that would show that the tide has turned--
is turning that would hopefully lead and then indicate that we 
are on the road to achieving strategic success?
    And then finally, if you could, long term, how do we defeat 
this radical, violent ideology? Because in many ways this is an 
ideological war as well as a violent military one.
    So I understand I have asked a lot there, and if you can't 
get to everything I understand, but perhaps some additional 
thoughts in writing would be helpful, too.
    General, should we start with you?
    General Keane. Okay. Thank you.
    Well, certainly in terms of some near-term tactical success 
that would indicate that we are beginning to turn the tide 
against ISIS is to capitalize on what we have already achieved 
in Iraq. We have stalled their offensive in Iraq largely 
through the use of air power. We have retaken some territory, 
some modest territory back in Baiji and also up in Sinjar in 
the north.
    But what is coming next, and I think you are very much 
aware of is largely a counteroffensive military campaign to 
retake the major environs of Mosul, Tikrit, Fallujah, and part 
of Anbar Province, essentially fighting up the Tigris and 
Euphrates River Valleys is what we are really talking about 
here.
    And that counteroffensive will be a major campaign and, if 
successful, clearly that will demonstrate that the tide has 
truly turned against ISIS. They will have to flee into Syria, 
which is their de facto capital now. It is where they maintain 
many of their--much of their resources. It is where their 
recruiting and training is taking place. And it will be a--
continue to be something of a safe haven to them because there 
is--at least in the near term there is no ground force to act 
against them, although we will try to find--continue to find 
targets against them.
    But that will send a huge message in terms of initial 
tactical success against ISIS. And I think it would have some 
impact, don't know for certain, but my judgment tells me it 
would begin to have some impact on whether people want to join 
this organization or not when they see it largely beginning to 
be destroyed right before their eyes.
    So I think that is very important to us. And as we have 
said many times here, and I think everybody sitting at the 
table here is in agreement, that is an immediate military 
strategy, but we need a longer-term strategy that deals with 
the ideology or we will be dealing with ISIS-like enemies 
again. And that truly should be avoided.
    We have an incredible lexicon of learning experience here 
after--you know, it will be 14 years this September of dealing 
with this radical Islamic issue and we still, still, as we sit 
here now, do not have a comprehensive strategy to deal with it.
    Undermining their ideology in a global alliance is what I 
suggested, and I think that is largely dealing with the people 
in the region who have to do this because the ideology is tied 
to the Islamic religion. But it also, from a practical sense, 
an alliance like that would share intelligence, it would share 
training, it would share technology so that people in it are 
all benefitting from it.
    And I don't think we would craft that strategy. I think we 
would bring that alliance together and the alliance would craft 
it. And the input we would get from the participating nations 
who are dealing with this would be very significant, in my 
judgment, in terms of how to approach it and what practical 
means are there to do it.
    And I will stop right there so others have an opportunity 
to talk.
    Mr. Langevin. My time is expired and I wish we had time, 5 
minutes goes by too fast.
    I would appreciate input from the other witnesses on the 
things that I raised, but I do thank you all for your input 
here today.
    I also want to make a point that I am encouraged that this 
needs to be a multinational coalition and that we need to see 
the nations in the Arab world also step up, which I see that, I 
see that they are doing. We need to see more of that.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Ashford.
    Mr. Ashford. Thank you. And I appreciate the opportunity to 
be the last questioner. But I thank you, Mr. Chairman.
    I want to just make a few points. I also was in Afghanistan 
and Iraq with Congressman Moulton and Congresswoman Stefanik 
and Congressman Wilson. It was an extremely important trip. We 
went everywhere, pretty much, and these answers have been right 
in line with the thinking at least I come back with.
    And it was very important to have Congressman Moulton there 
because of his work with General Petraeus. He was able to 
really zero in and--laser-like on the questions that--many of 
which have been asked today.
    Let me just say, I absolutely agree with the panel, General 
Keane for sure, and that is that the number one goal here is to 
destroy ISIS and that we need to refresh, rewrite, do again, 
whatever it is, the resolution that is there.
    We had several conversations--I did and I know Congressman 
Moulton did and others--with members of the military and 
leaders--King Abdullah and the prime minister in Iraq and so 
forth. And everyone said the same thing: We need to have a 
clear resolve.
    I was on a C-130 and the navigator said, ``Congressman, do 
you think you can get a resolution?'' You know, and I said, 
``Well, we will see if we can,'' but, I mean, it is clearly the 
case.
    I have been struggling with, and I also would just say 
this: I absolutely reject the idea that somehow these Muslim 
Arab countries cannot, with our help, be successful. I think 
that is just not correct.
    I know you are saying the opposite, but I, you know, hear 
that, and that it--and that we are an exceptional nation and 
that we are going to have to maybe play a role that maybe 
somewhat outweigh those of others. And also that the 
ideological work, which clearly every leader we talk to--King 
Abdullah was emphatic about the need to address, you know, 
sectarian education, to deal with economic development. And he 
did talk about a Syrian strategy, and it is a little more long-
term.
    Let me just ask this. I know in Nebraska, you know, what I 
get asked is, you know, ``Are we going to need boots on the 
ground,'' and I know you have answered this. My sense is that 
we haven't defined that yet, we don't know exactly what the 
assistance is going to be. We are in an assist role at the 
brigade level now and we have--intelligence support as well as 
our Air Force and Navy pilots, whatever.
    I think you are right. I think we have to have a broader 
resolution, but boots on the ground does not necessarily mean a 
brigade, but if there is something going on in the field where 
Americans need to, I am sorry for the long question, need to 
get involved, that would--that is also boots on the ground, 
technically. They are on the ground.
    So, General, could you--if you would?
    General Keane. Well, let me just--well, first of all, I 
appreciate your comments and you going to the region like that. 
It is insightful listening to you.
    We do create a false narrative here, and it is this, and 
rightfully so. We don't want to be involved in a protracted war 
like Iraq or Afghanistan, certainly. We all understand that. 
But also, nobody is talking about that here either.
    So we get a choice between--we don't want to have boots on 
the ground that will lead us to a protracted war where hundreds 
of thousands of U.S. troops are involved. I don't know anybody 
that is making such a proposal or recommendation. Certainly 
nobody in the Pentagon, to be sure.
    And I don't know anyone who is opposed to the President's 
strategy is suggesting such a thing either. But we are 
suggesting what is reasonable. And it is reasonable that the 
coalition lead and we help.
    So we do need some boots on the ground to make them more 
effective, and I think that is reasonable. So what are we 
really arguing over here? We are arguing over scale.
    The present policy is nothing below brigade level. I am 
saying you got to get down to battalion level where the 
fighting is going on. And maybe we will eventually get there 
because as we begin to do this General Austin and his team will 
want the same thing. And then we need Apache helicopters, and 
AC-130 gunships, and et cetera, et cetera.
    This is modest improvement, in my judgment, that gets you 
an exponential better result.
    Now, let me throw something out that maybe you would 
disagree with. If this offensive fails, we try it and it fails, 
do we wring our hands and say, ``Okay, we are going to come 
back next year with the same force, with more boots on the 
ground, better-trained force and we will give it a try in 
2016,'' or, if this is truly in our national interest, maybe a 
reasonable alternative is to have an Arab coalition force that 
the United States is part of form in Kuwait and we put that 
force on the ground, which would mean some brigade combat teams 
to do that.
    Is that something we should do now? Absolutely not. We want 
the burden to be borne by the Iraqis.
    But if it is failure and we can't seem to get there, should 
that be an alternative that we should at least consider? I 
think it is.
    Mr. Ashford. If I may, and I don't--my clock isn't working 
so I may be over--is--I agree with you, and I think that is the 
kind of definition, because Mosul is tough, and it may be--or 
these other operations.
    And quite frankly, 2016, we were told, that is in play. It 
is going to take--it may take 2016, with other efforts, and it 
may take more American forces. So that is--as we draft this 
thing I think that advice has to be taken into consideration.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Y'all have answered a wide range of questions and I think 
you can tell members are very serious and very concerned about 
this. I don't want to try your patience too long. I have got 
one other thing I want to get comments from our legal experts, 
if I may, because it continues to bother me in some ways.
    And my question is, can the way an enemy define itself or 
affiliate itself matter when it comes to an AUMF? Because we 
have stretched the meaning of the 2001 AUMF so far that anyone 
who has a connection with the attacks of 9/11, it is just hard 
to even believe those words have much meaning.
    And we have this situation where there have been incidents 
where al-Nusra and ISIS have disassociated themselves from each 
other and actually fought with each other, and yet the claim is 
once you are under the--affiliated with Al Qaeda you are always 
affiliated with Al Qaeda no matter what you do or say.
    So we don't want people to be able to change their name and 
thus not be subject to attack. On the other hand, is there 
nothing that you do or say that ever changes your affiliation?
    I mean, I don't know, do y'all have legal opinions about 
the way that works or doesn't work?
    Mr. Wittes. So I think the--at the polar levels the answer 
to your question is, I think, pretty clear, which is to say--
let's say, you know, I am a member of Al Qaeda and I openly and 
publicly renounce and break my affiliation with the group, I 
think there is a pretty good argument under those circumstances 
that, to the extent that the AUMF once covered me, it may no 
longer cover me.
    And similarly, if you imagine a faction of Al Qaeda that 
breaks off and says, you know, ``We want to start a peace 
process,'' right, I think you could make an argument that you 
might think about that group very differently under the AUMF.
    Both of those are somewhat fantastical examples, but I 
think the other side of it is if Al Qaeda changes its name 
tomorrow to Greenpeace, no one would seriously argue that we 
then lack the authority to, you know, attack, you know, the 
Greenpeace front in Syria. Where the question gets very hard is 
where you have these ever splintering groups that are 
historically affiliated but may be no longer affiliated, or may 
be offshoots of groups that are themselves offshoots.
    And here I think, you know, I go back to the point that, 
you know, we started with, which is that the underlying 
document is aged. It is very appropriate, given that, to write 
a document that describes the war that we are fighting rather 
than, in fact, rather than the war that we thought 13 years ago 
we would be fighting.
    By the way, that document will have a shelf life and a 
half-life too, and it will start degrading almost as soon as 
you pass it, which is another reason that the idea of whatever 
you call it--the renewal or the sunset or the reengagement, no 
pun intended--is a good one, and it forces you to come back and 
say, ``Does this document still describe what we want to be 
doing?''
    The core of the problem you identify is unsolvable because, 
unlike, you know, the Third Reich, which doesn't morph, right? 
It asserts a sovereignty; it is what it is; it is--you know, 
this is not--this is more fluid than that.
    The Chairman. Okay.
    Mr. Chesney.
    Mr. Chesney. So I think this underscores one reason why the 
oversight provision that our draft had emphasized, specifically 
including a requirement that when the administration, or when 
the Pentagon, whoever, identifies a group as an associated 
force or a successor force, that there be some, certainly at 
least to Congress and preferably to the American public, that 
that decision has been made. In other words, Ben is right, 
there is a level at which this is unsolvable with crafting of 
language, so you shine a spotlight on it and make sure that 
people are aware of how it is being interpreted. So that is one 
thing I would say.
    And then the second thing I would say is this is both a 
problem for the removing--a group removing itself from the 
scope of the AUMF, but also coming into it. And so to give a 
concrete example of this, in the Sinai there is a group, ABM--I 
am going to mispronounce this but it is something along the 
lines of Ansar Bayt al-Maqdis. It had been an Al Qaeda-
affiliated group but the Egyptians have done a tremendous job 
of taking out their leadership, and one consequence of all that 
is that the people now in charge apparently were open to tying 
in with ISIL instead, and they have made formal claims to 
affiliation with ISIL, so now you have this ISIL franchise in 
the Sinai.
    Well, you know, would they count, if they have not taken 
any action or shown any inclination to take action against the 
United States, merely by virtue of that formality? These are 
the debates we have been having for 13 years under the 2001 
AUMF. This is an occasion to think more systematically about 
how to define things, and if there is no better way to define 
it then you shine a spotlight on it.
    The Chairman. Okay. Great point.
    Thank you again, all. Y'all have really been helpful, I 
think, to the committee, and we appreciate your time and 
patience over these last 3 hours.
    With that, the hearing stands adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                           February 26, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 26, 2015

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. Do you believe the Authorization for the Use of 
Military Force (AUMF) the President is proposing gives our military the 
flexibility they need to succeed in their mission of destroying the 
Islamic State of Iraq and the Levant (ISIL)?
    President Obama's proposal for a new AUMF ``does not authorize the 
use of the United States Armed Forces in enduring offensive ground 
combat operations.'' How do you interpret the phrase ``enduring ground 
operations'' and do you believe that statement will be clear to our 
commanders on the ground?
    Do you believe that the lack of clarity in the phrase ``enduring 
ground operations'' will lead to delays in military action as 
commanders seek legal guidance on whether certain operations go outside 
the scope of the President's AUMF?
    Given that in the past, premature withdrawal of U.S. Armed Forces 
in the Middle East has resulted in regional instability and allowed 
terrorist groups to gain power, are you concerned that the 
administration is not planning appropriately for U.S. action after the 
defeat of ISIL with a limited 3-year AUMF?
    The President has placed a 3-year limitation in his proposed AUMF. 
Do you believe that his current strategy will result in the defeat of 
ISIL in that timeframe?
    General Keane. [No answer was available at the time of printing.]
    Mr. Shuster. Mr. Chesney, your testimony highlighted that President 
Obama's proposed Authorization for the Use of Military Force (AUMF) 
fails to address several key areas such as defined objectives, 
adversary detention, and applicability of the Law of Armed Conflict 
(LOAC). Which omissions do you think should be of greatest concern to 
this panel as we continue to evaluate the AUMF?
    Mr. Chesney. The most troubling aspect of the proposed AUMF is the 
language that attempts, in an indeterminate way, to draw a line between 
the sort of ground-forces presence that would be lawful and that which 
would not be. As I testified at the hearing, the nature of the line 
thus drawn is very far from clear, and would leave commanders uncertain 
as to the scope of their authorities.
    I would also note that, if the last fourteen years have taught us 
anything about AUMFs, it is that AUMFs going forward ought to contain 
specific language addressing the metes and bounds of authority to use 
military detention. The 2001 AUMF did not have such language, and it 
launched a decade's worth of litigation. Eventually, Congress in an 
NDAA at last codified the concepts that the courts and the 
administration had jointly sorted out during those years, but that 
legislation (like the 2001 AUMF) has a muddy connection to the ISIL 
scenario. If our use of force against ISIL warrants a new AUMF, then so 
too should it warrant fresh legislation speaking to detention 
authority.
    Mr. Shuster. Do you believe the Authorization for the Use of 
Military Force (AUMF) the President is proposing gives our military the 
flexibility they need to succeed in their mission of destroying the 
Islamic State of Iraq and the Levant (ISIL)?
    President Obama's proposal for a new AUMF ``does not authorize the 
use of the United States Armed Forces in enduring offensive ground 
combat operations.'' How do you interpret the phrase ``enduring ground 
operations'' and do you believe that statement will be clear to our 
commanders on the ground?
    Do you believe that the lack of clarity in the phrase ``enduring 
ground operations'' will lead to delays in military action as 
commanders seek legal guidance on whether certain operations go outside 
the scope of the President's AUMF?
    Given that in the past, premature withdrawal of U.S. Armed Forces 
in the Middle East has resulted in regional instability and allowed 
terrorist groups to gain power, are you concerned that the 
administration is not planning appropriately for U.S. action after the 
defeat of ISIL with a limited 3-year AUMF?
    The President has placed a 3-year limitation in his proposed AUMF. 
Do you believe that his current strategy will result in the defeat of 
ISIL in that timeframe?
    Mr. Chesney. There have been AUMFs in the past that have authorized 
only a certain degree of force to be used towards a particular end, but 
never in our history has this been the case when the specific purpose 
for using force is supposed to be the utter destruction of an enemy 
military force. In this instance, the proposed AUMF precludes the use 
of ground forces in most circumstances (though just where the line lies 
is, as noted above, unclear). While it may or may not be wise at any 
given point in time in fact to deploy U.S. ground forces against ISIL 
(one can and should be wary of the risks of doing so, particularly if 
the best estimate is that the American public will not in fact be 
adequately supportive of such an effort for it to be sustained for a 
long-enough period to have its full intended effect), it seems unwise 
to attempt by legislation to preclude the option altogether. Better to 
leave such judgments to the President to determine in accordance with 
evolving circumstances, perhaps in conjunction with a sunset clause to 
ensure ongoing Congressional engagement.
    The phrase certainly will not be clear to commander on the ground. 
It is wide open to reasonable disagreement amongst lawyers who will 
have to determine whether the line has been crossed by particular 
proposed operations.
    Definitely yes.
    The proposed three-year sunset is not the problem (though it may be 
that some other period aside from three years would be best). If there 
is a good case for continuing U.S. involvement in this conflict as the 
expiration of a sunset draws near, Congress and the President should be 
prepared to take the steps necessary to renew the authority. Put 
simply, a sunset is not a promise to stop engaging at that point. It 
may be, of course, that there is not adequate planning taking place for 
that eventuality. I would not connect that issue to the proposed 
sunset, however.
    It seems very unlikely that ISIL will be destroyed within the next 
three years. Whether ISIL will be so degraded as to no longer pose a 
strategic threat is a different question. My instinct is to be 
skeptical, but I certainly would not claim to have a strong sense of 
just where ISIL will be in three years. Again, however, this is no 
reason to reject the idea of using a sunset as a vehicle to ensure 
continued and refreshed Congressional engagement on the AUMF issue.
    Mr. Shuster. Mr. Wittes, you made an argument that President 
Obama's Authorization for the Use of Military Force (AUMF) does not 
hinder the flexibility of military operations based on the reasoning 
that the 2001 AUMF can be leveraged to employ ground troops or extend 
operations. Do you foresee challenges at the execution level in 
simultaneously executing multiple authorities and do you have any 
concerns regarding the perceived implications of current AUMF 
limitations by our allies or enemies?
    Mr. Wittes. [No answer was available at the time of printing.]
    Mr. Shuster. Do you believe the Authorization for the Use of 
Military Force (AUMF) the President is proposing gives our military the 
flexibility they need to succeed in their mission of destroying the 
Islamic State of Iraq and the Levant (ISIL)?
    President Obama's proposal for a new AUMF ``does not authorize the 
use of the United States Armed Forces in enduring offensive ground 
combat operations.'' How do you interpret the phrase ``enduring ground 
operations'' and do you believe that statement will be clear to our 
commanders on the ground?
    Do you believe that the lack of clarity in the phrase ``enduring 
ground operations'' will lead to delays in military action as 
commanders seek legal guidance on whether certain operations go outside 
the scope of the President's AUMF?
    Given that in the past, premature withdrawal of U.S. Armed Forces 
in the Middle East has resulted in regional instability and allowed 
terrorist groups to gain power, are you concerned that the 
administration is not planning appropriately for U.S. action after the 
defeat of ISIL with a limited 3-year AUMF?
    The President has placed a 3-year limitation in his proposed AUMF. 
Do you believe that his current strategy will result in the defeat of 
ISIL in that timeframe?
    Mr. Wittes. [No answer was available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. Please explain what a U.S. victory against the 
Islamic State of Iraq and the Levant would look like in your opinion, 
and the best way to go about achieving that goal.
    Mr. Chesney. I confess I am somewhat reluctant to weigh in on this 
particular question, as my expertise is better directed at the legal 
questions associated with this matter. That said, I will venture the 
following observations: First, that which counts as victory depends 
very much on what the United States determines to define as its goal. 
There are several possibilities:
    <bullet>  We might aim to destroy ISIL altogether, period.
    <bullet>  We might aim to prevent ISIL from toppling the government 
of Iraq.
    <bullet>  We might aim to prevent ISIL from prevailing in the 
Syrian war to the extent that it can control a meaningful amount of 
territory or population.
    <bullet>  We might aim to prevent the further spread of ISIL to new 
locations (Egypt, Libya, Afghanistan, etc.).
    <bullet>  We might aim to tamp down the appeal of ISIL's propaganda 
attempting to spur lone wolves to violence abroad.
    We might, of course, aspire to some combination of the above. And 
whatever the mix of aspirations, they will intersect (and sometimes 
have to be traded off against) a wide range of related (but distinct) 
sets of policy goals, such as those relating to the larger Syrian 
conflict, relations with Iran, and so forth. Finally, one must bear in 
mind that some of these potential goals are (or would be) easier than 
others for the administration to embrace and emphasize publicly.
    As an outsider I am not in a good position to weigh either the 
relative desirability of these possible goals, or the extent to which 
various ones of them are within our realistic reach now or over the 
long term.
    Mr. O'Rourke. Please explain what a U.S. victory against the 
Islamic State of Iraq and the Levant would look like in your opinion, 
and the best way to go about achieving that goal.
    Mr. Wittes. [No answer was available at the time of printing.]

                                  [all]
</pre></body></html>
